<html>
<title> - THE GREEN AGENDA AND THE WAR ON COAL: PERSPECTIVES FROM THE OHIO VALLEY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
THE GREEN AGENDA AND THE WAR ON COAL: PERSPECTIVES FROM THE OHIO VALLEY

=======================================================================



                                HEARING

                               before the

                  SUBCOMMITTEE ON REGULATORY AFFAIRS,

               STIMULUS OVERSIGHT AND GOVERNMENT SPENDING

                                 of the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 31, 2012

                               __________

                           Serial No. 112-170

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform




                  U.S. GOVERNMENT PRINTING OFFICE
75-591                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

 Subcommittee on Regulatory Affairs, Stimulus Oversight and Government 
                                Spending

                       JIM JORDAN, Ohio, Chairman
ANN MARIE BUERKLE, New York, Vice    DENNIS J. KUCINICH, Ohio, Ranking 
    Chairwoman                           Minority Member
CONNIE MACK, Florida                 JIM COOPER, Tennessee
RAUL R. LABRADOR, Idaho              JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          BRUCE L. BRALEY, Iowa
FRANK C. GUINTA, New Hampshire
MIKE KELLY, Pennsylvania


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 31, 2012....................................     1

                               WITNESSES

Mr. Robert Hodanbosi, Chief, Division of Air Pollution Control, 
  Ohio EPA
    Oral Statement...............................................     7
    Written Statement............................................    10
Mr. Andy Thompson, Ohio State Representative
    Oral Statement...............................................    14
    Written Statement............................................    17
Mr. Tony Ahern, CEO of Buckeye Power, Inc.
    Oral Statement...............................................    23
    Written Statement............................................    25
Mr. Tom MacKall, President, East Fairfield Coal Company
    Oral Statement...............................................    30
    Written Statement............................................    32
Mr. Shawn M. Garvin, Regional Administrator, Region III, U.S. 
  Environmental Protection Agency
    Oral Statement...............................................    57
    Written Statement............................................    60


THE GREEN AGENDA AND THE WAR ON COAL: PERSPECTIVES FROM THE OHIO VALLEY

                              ----------                              


                         Tuesday, July 31, 2012

                   House of Representatives
      Subcommittee on Regulatory Affairs, Stimulus 
                  Oversight and Government Spending
               Committee on Oversight and Government Reform
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 8:00 a.m., Ohio 
University Eastern Campus, Shannon Hall, 45425 National Road 
W., St. Clairsville, Ohio, Hon. Jim Jordan [chairman of the 
subcommittee] presiding.
    Present: Representatives Jordan and Kelly.
    Also present: Representatives Johnson and McKinley.
    Staff present: Christopher Hixon, Deputy Chief Counsel, 
Oversight; Ryan M. Hambleton, Professional Staff Member; and 
Alexia Ardolina, Assistant Clerk
    Mr. Jordan. The House Oversight Subcommittee will come to 
order. We are pleased to be here at the Ohio State University 
Eastern Campus. If we could have Dean Richard Greenlee come 
forward. Come right on up.
    Mr. Greenlee. I want to welcome you to our campus. We are 
glad you took the opportunity to use our fine facilities, and 
we hope you have a very productive meeting.
    Mr. Jordan. Thank you. Thank you so much for your 
hospitality. We will start with opening statements and get 
right to our first panel. We have two panels. We look forward 
to hearing testimony from everyone.
    Let me again thank the Dean and the University here for 
allowing us to be here this morning. I also want to thank 
Congressman Bill Johnson. We are in the fine district of the 
Congressman, and we appreciate him joining us today, as well as 
Congressman Kelly from Pennsylvania and Congressman McKinley 
from West Virginia.
    It is important and helpful for the Committee to hear 
firsthand about the problems facing local communities across 
the United States. We have come here today to learn about the 
effects of the Obama administration's war on coal and the 
impact of federal regulations on families and businesses here 
in southeast Ohio.
    Coal is very important to communities in this area and to 
the nation as a whole. According to 2010 data from the U.S. 
Energy Information Administration, in Ohio, Pennsylvania and 
West Virginia, there are 765 coal operations employing over 
32,000 miners. As of 2011, these three states account for over 
20 percent of the coal production in the United States. Not 
only is coal produced in this region, but it is used here, too. 
As of 2010, Ohio derived 82 percent of its electricity from 
coal. In Pennsylvania this figure was 48 percent. West Virginia 
relied on coal for almost 97 percent of its electricity that 
year.
    America needs coal to provide nearly half of its entire 
electricity. Coal is used so heavily because it is cheap, 
reliable and abundant. Inexpensive and dependable electricity 
is crucial to manufacturing operations, which is important to a 
state like Ohio that depends on manufacturing to create jobs. 
However, coal in this country is under assault by this 
administration.
    The President has made statements to indicate his support 
for ending or significantly curtailing the use of coal and 
other fossil fuels as an energy source. In 2008, as a 
candidate, then Senator Obama said, quote, under my plan of a 
cap-and-trade system, electricity rates would necessarily 
skyrocket. Coal power plants, you know, natural gas, you name 
it, whatever the plants were, whatever the industry was, they 
would have to retrofit their operations. That will cost money.
    Unfortunately it appears the President is making good on 
his campaign promise. The present anti-coal philosophy has 
found its way into the operations of the United States 
Environmental Protection Agency among other parts of the 
Administration. In fact, the EPA has been the most zealous in 
enacting the President's philosophy. The agency has taken 
unprecedented action by overstepping its Congressionally 
approved authority under the Clean Water Act to slow down new 
coal permits and to attempt to veto existing permits after they 
have already been approved properly by the Army Corps of 
Engineers.
    EPA's assault on the industry has also taken a form of 
rules that will make it harder to use coal. Local examples of 
this assault include the Utility MACT rule which requires 
extremely expensive upgrades to coal-fired power plants and the 
Greenhouse Gas New Performance Standards for electric 
generation units which would essentially ban the construction 
of new coal-fired electricity generation facilities. These 
regulations will cost billions of dollars and will result in 
massive job losses.
    I want to welcome today's witnesses. Thank you all for 
being here. We are looking forward to hearing your testimony on 
the impact of the EPA regulations and permitting issues on the 
coal industry and on job creation and economic growth here in 
southeast Ohio.
    We also appreciate the attendance of the witnesses 
representing EPA and look forward to their testimony on the 
second panel. These witnesses represent two regional 
administration offices that have jurisdiction over Ohio, 
Pennsylvania and West Virginia. We look forward to hearing more 
from them about the role that the EPA's regional administrators 
play in implementing the policies of this Administration. 
Again, thank you all for coming. We will get to our witnesses 
here in just a minute.
    First I want to yield to the gentleman from Ohio whose 
district we are in, Congressman Johnson.
    We have one housekeeping matter. Can we have unanimous 
consent to have Mr. Johnson sit on the committee and 
participant in this hearing?
    Hearing no objection, Mr. Johnson, you are recognized.
    Excuse me. We need that for David as well. No objection. So 
recorded.
    Mr. Johnson you are recognized for your opening statement.
    Mr. Johnson. Thank you, Mr. Chairman. I appreciate you 
yielding me time and for hosting this important hearing on the 
Administration's War on Coal. I would also like to thank our 
witnesses for taking the time to come and testify before us 
today on this important issue.
    Since taking office, this President and his Administration 
has led an all-out fight against the coal industry. And the 
fight has been a 2-front war, one on the production side of 
coal and one on the market side of the coal industry.
    On the production side, we have seen the EPA slow-wall 
permitting for coal mines, and in one egregious case they even 
retroactively vetoed a permit that had been approved by the 
Army Corps of Engineers. But the EPA isn't the only department 
in the Administration attacking the ability of coal companies 
to mine our natural resources. The Department of the Interior 
has been trying to rewrite the 2008 Stream Buffer Zone rule 
since late January 2009, just mere days after this President 
took office. By some estimates this proposed rewrite of the 
Stream Buffer Zone rule could cost tens of thousands of direct 
and indirect jobs and cause the price of electricity to 
skyrocket.
    Now, since I took office in 2011, I have been fighting 
tooth and nail to stop the Administration from going forward 
with this new rule, and I have introduced legislation to do 
exactly that.
    On the market side of the equation, the EPA has 
aggressively placed standards on coal-fired power plants that 
are unrealistic and uneconomical for utility companies to meet. 
Power plants throughout the midwest are left with the 
impossible decision of shutting down or spending billions of 
dollars raised through rate hikes on consumers to meet the new 
standards.
    Down near my home of Marietta, Ohio, a large power plant 
will close in the coming months because of these new standards. 
Over 150 Ohioans will lose their jobs, and families and small 
businesses will be left with higher utility rates. As a 
candidate, as the chairman pointed out, the President told us 
what his policies toward coal and coal-fired power generation 
would do when he infamously said that if a company wants to 
build a coal-fired power plant, they can, but it will bankrupt 
them.
    This President doesn't seem to understand that for states 
like Ohio, which receives over 80 percent of its power from 
coal plants, the people who are hit hardest are the seniors on 
fixed income, hardworking families and the small businesses 
that are the job engines of our economy.
    In fact, the average American family has seen a $300 per 
year increase in their utility bill since this President took 
office, and that is a direct impact of his crippling coal 
policies. Now, you can guarantee that this number will only go 
up for Ohioans if the President's war on coal is not stopped 
and is not stopped soon.
    I would like to thank you again, Mr. Chairman, for hosting 
this important hearing and shedding light on this 
Administration's economically destructive coal policies, and I 
look forward to hearing the important testimony from our 
witnesses.
    With that I yield back the balance of my time.
    Mr. Jordan. Thank the gentleman. Now I yield to the 
gentleman from Pennsylvania, Mr. Kelly, for his opening 
statement.
    Mr. Kelly. Thank you, Mr. Chairman, for holding this 
hearing. I am not too far from here, over in Pennsylvania, and 
there are a lot of my friends that are in the coal business. 
Most of the time when I get a chance to talk to people, I talk 
about a country that has been so blessed with natural 
resources. Coal is abundant. It is accessible. It is 
affordable. It is has been the backbone of our nation's 
electric power for so long. About half of the electricity we 
have in Pennsylvania comes us from coal.
    When I hear people talk about coal, they talk about coal in 
a way that I do not particularly care for. I know this 
Administration does have a war on coal. Do not be fooled by the 
small talk and the chitchat about they do not. I am telling you 
there is a war on coal. There is a war on fossil fuels. This 
Administration through the EPA has made it very difficult for 
my friends that are in the coal business. They are making it 
for difficult for Americans who rely on touching that switch 
and flipping it on and having their lights come on, able to 
cool their houses in the summer, able to light lights and do an 
awful a lot of things and run their industry. When you hear 
this going on day after day, week after week, month after 
month, it is time to stop chitchatting and tap dancing around 
the issues.
    Now, listen, all of us want clean air. All of us want clean 
water. But you know what we also want? We want our economic 
freedom. Why in the world would we put this country at risk 
with the abundance of natural resources that we have, the 
abundance of coal that we have. 200 years' supply right here 
beneath our feet.
    Other places around the world would love to have what we 
have. They look at us and they scratch their heads and say, 
``What is it with you folks? Why would you put yourselves 
behind the 8 ball? Why would you put yourselves in a position 
where you can't power yourselves?''
    Now, I am glad we are having this hearing today, and I am 
glad that the public is here. I hope that America is paying 
attention. There are very clear decisions in the way this 
country is being run. For those of you who are not watching it 
closely, please, please wake up and smell the coffee. We are at 
dire risk of losing the greatest country in the world because 
of an onerous government that keeps its boot on the throat of 
our job creators, that keeps its boot on coal and does not want 
coal as part of our energy production. Make no mistake about 
it. That is what they are trying to do.
    So the fact that we are here today and we are able to talk 
to different witnesses and talk to people who do produce this 
power and produce this product that allows America to rise to 
the top, I sure welcome that chance.
    We also have our friends at the EPA here. I got to tell 
you, gentlemen, at some point someone better take a look at 
what is happening in America. We cannot legislate and regulate 
and make it impossible for America to continue its great 
success if we keep up with these policies.
    Mr. Chairman, I am going to yield back. Thank you so much 
for having this hearing.
    Mr. Jordan. I thank the gentleman for his comments.
    The gentleman reminded me that the world is better and 
safer when America leads. The simple fact is you cannot lead 
militarily, you cannot lead diplomatically if you don't lead 
economically. You cannot lead economically if you don't have 
energy. The gentleman's comments about affordable, abundant and 
accessible coal is critical to being able to lead in the energy 
area and, therefore, being able to lead economically and, 
therefore, make the world a better place. That is really what 
is at stake here.
    I appreciate the gentleman's comments from Pennsylvania. 
They were right on target.
    I would now yield to the gentleman from West Virginia for 
his opening statement.
    Mr. McKinley. Thank you, Chairman Jordan. Thank you for 
holding this hearing today to expose this war on coal being 
waged by the EPA and President Obama's Administration. The coal 
that is mined here in eastern Ohio and throughout West Virginia 
powers America and provides good paying jobs for thousands of 
families and revenue for numerous state and local governments.
    But the coal industry and the coal-fired electric 
generating plants are under siege, and the future is indeed in 
jeopardy. Under the pretext of global warming his playful 
support of radical and environmental extremists and his passion 
for renewable energy models, President Obama is relentlessly 
pursuing a dangerous gamble of diminishing the contribution of 
coal and our country's energy portfolio.
    The President himself has said, as you have heard from 
other speakers, that he may not be able to prevent coal-fired 
utilities from being constructed, but the taxes and regulations 
that he will impose will bankrupt those that try.
    How about Secretary of Energy, Secretary Chu who said coal 
is his worst nightmare. The leading speaker for energy in 
America has said coal is his worst nightmare. Or Vice-President 
Biden who has said the present Administration is not supporting 
clean coal technology. Or what about Senator Reid who 
announced, ``Coal makes me sick. It is ruining our country.''
    Wait. What about the assault from the EPA. The coal 
industry and the electric generating plants have had to deal 
with issues like delayed water permitting, unreasonable water 
conductivity expectation, a mercury emission standard that is 
crippling the current plants, a threat of treating coal ash as 
a hazardous material, regulating minute particulate matter 
designated with virtual no health benefit but costing the 
consumers billions of dollars, proposing New Source Performance 
Standards when there is no technology available to perform that 
standard, cooling water temperature, cross-state air pollution 
standards, intimidation of state and local environmental 
agencies by the powerful EPA, potential roadblocks permitting 
companies from exporting coal and even natural gas and oil, and 
then coupled with a 41 percent reduction in the R & D spending 
of the Department of Energy's money for clean coal technology. 
That is backed on the fact that last year, they had 39 percent 
reduction in the R & D for clean coal technology.
    This form of industrial harassment has already cost 
utilities across America to initiate plans reluctantly to begin 
the closure of approximately 125 power generating plants across 
America out of the 700. That is a result of almost 25 percent 
less power that's going to go into the grid because of this war 
on coal. But keep in mind the EPA's own economic model only 
predicted a 2 percent reduction. How wrong they have been.
    The integrity of the grid, the ability of consumers and 
manufacturers to have access to low cost electricity could very 
well be put to the test in the coming years unless other 
electrical generation from natural gas, oil, biomass, hydro, 
wind, solar become available and dependable.
    President Obama is depending on the environmental side of 
this equation to shore up his argument for this war on coal. 
Little, if any, of the global greenhouse gas emissions can be 
achieved without comparably enforced environmental standards in 
China and India. Both of these countries are seizing every 
opportunity to expanded their economies using coal as a primary 
energy source.
    More specifically, China has been constructing the 
equivalent of a new powerhouse, coal-fired powerhouse every 
week for the last three years. 12 years ago the United States 
and China were both producing and operating on a billion tons 
of coal. 12 years later, China is now at 3,000,000,000 tons, 
triple in just 12 years. They tripled their dependency and use 
of coal whereas in America, we are still back at 1.1 billion, 
but we are exporting the majority of that.
    We all want clean, affordable and dependable energy with 
increases, not reductions in money for R & D. We will get 
there. The ideologues and regulators in Washington need to step 
back and simply say to themselves just because you can doesn't 
mean you should. Regulators need to slow down, take a close 
look at the economic impact of their actions. Perhaps if these 
regulators and bureaucrats got out of the Washington Beltway 
and came over to America's coalfields here in eastern Ohio and 
throughout West Virginia and toured the technological marvels 
of our country's coal-fired powerhouses and met with the 
hardworking men and women in these communities, perhaps then 
they wouldn't turn their backs on our nation's coal industry.
    Hopefully this hearing held today in the heart of Ohio's 
coal belt will demonstrate once and for all that the coal 
industry and our coal-fired utilities are clearly in an all-out 
confrontation with the Obama Administration and its rogue 
agency, the EPA. The outcome of this struggle, this war on 
coal, will demonstrate how vital our communities will be in the 
future and how manufacturers and consumers will react if king 
coal is overthrown. I look forward to hearing more of the 
testimony.
    I yield back my time. Thank you.
    Mr. Jordan. Thank the gentleman for his opening statement 
which is right on target.
    Let me introduce our first panel. We have Mr. Bob 
Hodanbosi, who is the Chief of the Division of Air Pollution 
Control at the Ohio Environmental Protection Agency.
    We have the Honorable Andy Thompson--good to have you with 
us, Representative--who represents the 93rd District in the 
Ohio House of Representatives, Mr. Anthony Ahern, who is 
president and CEO of the Ohio Rural Electric Cooperatives, Inc. 
and Buckeye Power, Inc. and Mr. Tom Mackall who is the 
president of Sterling Mine Corporation.
    Gentlemen, I want to thank you. You know how it works. You 
have to listen to us first. Then you get to go. You get five 
minutes. If you can stick to that five minutes, that would be 
great. We are kind of lenient. But one thing we have to do, and 
it is the practice of the oversight committee is before we hear 
from you, we want to swear you in.
    [Witnesses sworn.]
    Mr. Jordan. Let the record show that each witness answered 
in the affirmative.
    Mr. Hodanbosi you are recognized for your five minutes.

                       WITNESS STATEMENTS

                 STATEMENT OF ROBERT HODANBOSI

    Mr. Hodanbosi. Thank you. Mr. Chairman, members of the 
committee, thank you for the opportunity to provide this 
committee with information on the effects of the U.S. EPA 
requirements on the coal industry in Ohio and surrounding 
states. These series of new and additional standards continue 
to increase the cost of using this important domestic fuel.
    My name is Robert Hodanbosi. I am chief of the Division of 
Air Pollution Control at Ohio EPA. I have almost 40 years of 
experience in the field of air pollution control and have seen 
great improvements in air quality in the Ohio Valley and 
throughout the state. Attached is an example of the dramatic 
improvement in sulfur dioxide concentrations in Ohio. This 
improvement came at a substantial cost to Ohio utilities and 
industry. This reduction of sulfur dioxide emissions even 
further will require an even greater expense to obtain a 
diminishing return in improvement in air quality.
    There are several regulatory initiatives under way by U.S. 
EPA that have a direct adverse impact on coal or the major 
users of coal. In June of 2012 U.S. EPA promulgated a more 
restrictive ambient air quality standard for sulfur dioxide at 
75 parts per million one hour average. This new standard was 
promulgated without the implementation requirements for states 
to follow. U.S. EPA issued draft guidance on the air dispersion 
modeling methodology that should be used in attainment areas.
    Over 20 state and local air agencies expressed concern to 
U.S. EPA over the proposed methodology. After these concerns 
were raised by state and local air agencies and others, the 
U.S. EPA held a series of stakeholder meetings to receive 
comments on possible revisions to the guidance. We are still 
awaiting the outcome of the meetings and guidance.
    The Cross State Air Pollution rule was promulgated in 2011 
to regulate the amount of emission of sulfur dioxide and 
nitrogen oxide from utilities that can affect downwind states. 
This rule allows for limited trading of emissions. With the 
continued tightening of ambient air quality standards, U.S. EPA 
will be required to go back and promulgate even more 
restrictive standards. This leads to more regulatory 
uncertainty and increased cost to operate coal-fired power 
plants, leading to increased use of coal.
    On February 16, 2012, U.S. EPA promulgated the Utility 
Mercury and Air Toxic rule to reduce emissions from coal-fired 
power plants. This rule establishes very stringent standards 
for emissions of mercury, particulate matter and hydrochloric 
acid. The federal rule allows three years to comply with the 
standards. So by February 16, 2015, all units must be in 
compliance. U.S. EPA recognizes that the compliance date will 
be difficult to achieve for many units, and state permitting 
authorities have the ability to extend the compliance deadline 
by one year. Ohio EPA already initiated preliminary discussions 
with Ohio utilities to outline the documentation that will be 
necessary to approve the 1-year extension.
    What has been the result of all these U.S. EPA rules? There 
have been a series of announcements by the utility companies 
that over 25 boilers at power plants in Ohio will be closed. 
These closures will have a direct impact on mining and use of 
coal. Although these units are older, this does not mean that 
these units are no longer used.
    The Columbus Dispatch reported that some industrial 
consumers were required to reduce electrical consumption due to 
the lack of available electricity during a recent heatwave. For 
American Electric Power Company in Ohio, except for the small 
Picway unit, the other plants scheduled for shutdown were in 
operation. Ohio EPA remains concerned that if there are spot 
shortages of electricity today, the problem will be exacerbated 
when Ohio loses significant electrical generation capacity due 
to the closures as a result of the U.S. EPA requirements.
    U.S. EPA has proposed standards for coal-fired utility 
plants in the form of New Source Performance Standards. In the 
proposal U.S. EPA sets the standard for new coal plants to be 
the same as efficient new gas-fired plants. This proposed 
standard has not been achieved in practice by any coal-fired 
plant.
    Another aspect of this rule is that both the news release 
and preamble state that the rule only addresses new sources; 
however, U.S. EPA signed a consent decree that commits the 
agency to regulate new, modified and existing sources. Once 
this NSPS rule is promulgated, U.S. EPA will have no choice but 
to go forward on regulating existing sources under 111(d) of 
the Clean Air Act. Again, there is no cost effective controls 
for CO2 from existing power plants. This particular issue will 
have a huge impact on the continued operation of coal-fired 
power plants in the midwest and elsewhere.
    There are also additional requirements that the U.S. EPA is 
proposing on facilities that use coal. U.S. EPA is moving 
forward to tighten limitations on water discharges from coal-
fired power plants and to change the manner that coal residuals 
are regulated.
    Finally, any significant increase in electric rates will 
have an adverse impact on Ohio industry. For example, the only 
two manganese ferroalloy plants in the United States are 
located in Marietta, Ohio and New Haven, West Virginia. These 
plants are located near power plants due to the large electric 
demand needed to make the product. These plants can only remain 
competitive if there is reliable, inexpensive electric power.
    The same issue applies to aluminum producer Ormet in 
Hannibal, Ohio and other metal producers and alloy 
manufacturers in Ohio. For Ohio and other states to maintain an 
industrial base, there will continue to be the need for 
inexpensive power.
    Thank you for the opportunity to present these views on 
behalf of Ohio EPA. We would be glad to work with the committee 
for our recommendations on U.S. EPA requirements that are 
protective of public health but do not have as great an adverse 
impact on coal and coal-related industries.
    [Prepared statement of Mr. Hodanbosi follows:]
    [GRAPHIC] [TIFF OMITTED] 75591.001
    
    [GRAPHIC] [TIFF OMITTED] 75591.002
    
    [GRAPHIC] [TIFF OMITTED] 75591.003
    
    [GRAPHIC] [TIFF OMITTED] 75591.004
    
    Mr. Jordan. Thank you. I appreciate your fine testimony.
    Representative Thompson will be recognized.

                   STATEMENT OF ANDY THOMPSON

    Mr. Thompson. Mr. Chairman and members of the subcommittee, 
thank you for inviting me to testify at this hearing. My name 
is Andy Thompson. I am in my first term representing Ohio's 
93rd House District, and I represent Guernsey, Noble and 
Munroe, as well as portions of Washington and Muskingum 
Counties. Before being elected to the state legislature, I 
served on the Marietta City Council for three terms, getting 
elected to my final term in 2009.
    I appreciate the opportunity to speak before you today 
about the impacts of the Obama Administration's ill-advised 
energy and environmental policies and their impacts here in 
Ohio.
    Today I would like to discuss, number one, the 
Administration's war on coal and the impact on coal jobs, the 
impact on utility jobs and the greater coal communities, what 
this means for manufacturing in Ohio, and how this impacts our 
growing natural gas industry.
    This is coal country, and here in eastern Ohio we rely on 
coal not only for electricity, but also for good-paying jobs 
and a strong tax base to help provide critical services. Coal 
not only provides jobs for our miners, equipment operators and 
support personnel. It also provides many jobs in the 
surrounding communities where coal industry employees work and 
live.
    For example, a study from Pennsylvania State University has 
demonstrated that every direct coal mining job supports 11 
other jobs in such areas as trucking, railroads and equipment 
suppliers, as well as local businesses, including restaurants, 
stores, and gas stations. Coal has been integral to the 
wellbeing of eastern Ohio's communities for many, many years. 
When coal is doing well, we do well.
    But unfortunately, coal is in a tough spot right now. Many 
of the environmental policies that the Obama Administration has 
undertaken in recent years have caused substantial hardship in 
our region, and I fear that this may only be the beginning.
    Just last week, a major coal mine in my district announced 
that it was laying off 29 workers in direct response to several 
Obama Administration policies aimed at coal. Not too long 
before that, I learned of a surface mining company in Noble 
County that cannot get any new permits approved by the Corps of 
Engineers and the EPA. This company has mined almost all of its 
permitted property, but now is considering shutting down 
operations because the government has not granted it new 
permits. These are just two of the many troubling examples that 
have been brought to my attention recently.
    As every elected official knows, this is county fair 
season, and at every fair that I have been to, people have come 
up to me and expressed deep concerns about the war on coal and 
what it means for communities and for eastern Ohio. These 
people have spouses, brothers and uncles in the mining 
business, and they are all scared for its future and for their 
own future. I hear this more than any other issue. People in 
eastern Ohio are deeply concerned that the war on coal is going 
to ruin their livelihoods, their families, and their 
communities.
    When you hear about layoffs in the coal industry, you 
generally think about coal miners and others who work at a 
mine, and that is understandable because they are the first 
ones to lose their jobs and their livelihoods when a coal mine 
shuts down. But we also need to be thinking about what is going 
to happen to people who work at the coal-fired facilities that 
are being shut down. Those layoffs are starting to happen right 
here in Ohio.
    For example: AEP will shut down 5 units at the Muskingum 
River in Beverly, costing 128 jobs. They will shut down one 
unit at the Conesville Generating Station, eliminating 20 jobs. 
AEP will shut down one unit for nine months annually at its 
Picway plant near Lockbourne, costing 24 jobs. Duke will shut 
down one of its generating units at its Beckford Station in New 
Richmond, Ohio, impacting 120 jobs. First Energy will close 
units at its Bayshore, Eastlake, Lakeshore and Ashtabula 
locations, jeopardizing up to 530 jobs. GenOn will shut two 
units at its Avon Lake plant, costing 80 jobs, and GenOn will 
shut two units at its Niles plant, cost cutting 40 jobs.
    But Ohio alone will not be the only state impacted in our 
region from the war on coal. Two facilities are slated to shut 
their doors on the other side of the border in Pennsylvania, 
and three are going to shut down across the river in West 
Virginia. When you add in the job losses in West Virginia and 
Pennsylvania, we are talking about nearly 9000 direct, indirect 
and induced jobs in the Ohio Valley.
    Ohio is a manufacturing state, and it always has been. The 
energy boom in the Midwest has provided many opportunities that 
Ohioans are excited to pursue, but those opportunities are 
running head on into the Obama Administration's environmental 
policies.
    Let me provide a key example. The largest electricity user 
in Ohio is Ormet Corporation in Monroe County, which is an 
aluminum producer capable of producing 270,000 tons of aluminum 
per year. Ormet had employed roughly 1,100 employees with more 
than 900 represented by the United Steelworkers Union, but the 
company just announced that it was considering laying off 90 to 
100 of them due to concerns about increasing electricity 
prices. We are going to continue seeing this at other 
manufacturing facilities, both large and small, all across 
Ohio.
    Mr. Chairman, coal is not the only industry taking the 
brunt of this Administration's destructive environmental 
policies. Unfortunately, despite the unprecedented boom in 
natural gas production in our state, environmentalists and the 
Obama Administration are starting to turn a negative eye to 
natural gas.
    I am sure everyone here knows about the ``Beyond Coal'' 
campaign run by the Sierra Club. Now, they are beginning a 
``Beyond Natural Gas'' campaign, which will attempt to cast the 
same negative light on the natural gas industry that it did on 
the coal industry. And the Obama Administration is not far 
behind.
    There are many questions at the end of the day about the 
Obama administration's policies toward the coal and natural gas 
industries. What people really want to know is how much is this 
going to cost, and the costs are substantial. I see that I am 
running out of my time, so I will wrap it up here.
    I want to thank you and your colleagues, Chairman Jordan, 
for conducting this much needed oversight of the Obama 
Administration. I very much appreciate your efforts along with 
Speaker Boehner, Majority Leader Cantor and others who have 
passed several bills promoting energy development and reigning 
in the EPA and the Administration.
    I want to acknowledge Congressman Johnson because I know he 
has worked very hard on this. I just wish that the United 
States Senate and the President of the United States would 
follow suit.
    I should also note, Mr. Chairman, that I am doing my best 
here in Ohio to support those efforts. Specifically I have 
sponsored two separate resolutions in the legislature urging 
the President to suspend both Utility MACT and CSAPR. I also 
led the passage of a resolution in the House of Representatives 
that urges the President to discard proposals to increase taxes 
on producers of coal, natural gas and oil and instead adopt 
policies that encourage domestic production of these important 
resources.
    Thank you again, Mr. Chairman, for inviting me to testify 
today. I would be pleased to answer any questions at the 
appropriate time. Thank you.
    [Prepared statement of Mr. Thompson follows:]
    [GRAPHIC] [TIFF OMITTED] 75591.005
    
    [GRAPHIC] [TIFF OMITTED] 75591.006
    
    [GRAPHIC] [TIFF OMITTED] 75591.007
    
    [GRAPHIC] [TIFF OMITTED] 75591.008
    
    [GRAPHIC] [TIFF OMITTED] 75591.009
    
    [GRAPHIC] [TIFF OMITTED] 75591.010
    
    Mr. Jordan. Thank you, Representative.
    Thank you. Appreciate your work with the general assembly.
    Mr. Ahern, you are recognized for five minutes.

                    STATEMENT OF TONY AHERN

    Mr. Ahern. Thank you, Mr. Chairman and other committee 
members. I appreciate the opportunity to give testimony to you 
today. Buckeye Power is a generation and transmission 
cooperative owned by the Ohio distribution cooperatives. Ohio 
cooperatives serve 10 percent of the State of Ohio. Just 
upriver from where we are sitting here is the Cardinal station. 
We own two of the 600 megawatt units there, Cardinal Units 2 
and 3. We have spent in the last 10 years $1 billion for SCR 
and scrubbers for those units.
    We have made, as a result, a substantial reduction to 
sulfur dioxide and NOx emissions, as this chart over here 
vividly shows, a significant reduction. Cardinal now is able to 
use local high sulfur coal. So jobs have been added with this 
investment. That has helped the economy. Our Cardinal units are 
among the cleanest in terms of conventional pollutant coal 
plants in the United States. But this has come at a cost. The 
average residential cooperative consumer today pays about $20 
more a month to provide this result. But they are getting 
something for this. There is an air quality benefit. Everybody 
is happy about it. Our members are happy about it.
    I wish I can end my story here, but I can't. Why can't I? 
Because EPA is overly aggressively pursuing additional 
regulations. Let me give you an example using the MATS, the 
Mercury and Air Toxic rule.
    When EPA was looking at whether they should impose MATS, 
they assessed the damages, the health effects from mercury and 
hazardous air pollutants, and they estimated the annual 
economic value or impact on the country was $6 million a year. 
They then estimated what it was going to take to reduce 
emissions to what they considered an acceptable level, and that 
number was $9.6 billion That is right, a $4 to $6 million 
benefit at a $9.6 billion cost.
    How do they connect the 2? They have done what they have 
been doing for many years now, double counting. Mercury 
benefits alone couldn't justify their actions, so they looked 
at secondary benefits, in this case fine particulate reductions 
which they already regulate under another part of the Clean Air 
Act. So they are using overcompliance of fine particulate, what 
is referred to as PM2.5, by taking those levels below what they 
have established as an acceptable PM2.5 limit as a level they 
have established as protective of human health.
    This has got to stop, this double counting. The MATS rule, 
we are going to be able to meet the MATS rule we think. We are 
going to be close perhaps, but we think we have done enough. We 
don't think we should have to incur more cost. Our biggest 
concern about the MATS rule is the monitoring requirements. We 
strongly believe and EPA has provided testimony that have said 
they think the combination of SCR and scrubbers on eastern coal 
takes care of the mercury level.
    So we are not concerned about whether our mercury level is 
going to be on an absolute basis low enough. We believe it is. 
Our problem is going to be proving it through testing because 
mercury is so dilute in concentration. The standards they want 
to apply are 1.2 pounds per trillion BTUs. You typically think 
about an issue in pounds per million. This is pounds per 
trillion. So we are very concerned about the mercury emissions.
    Let me echo what other speakers have already said today 
about the greenhouse gas rule. Our nation is foreclosing coal 
with this action. History has shown it is dangerous to think we 
can predict over the long-term what energy sources are going to 
be economical and reliable. In the past our federal government 
has banned the use of natural gas for electric generation. 
Nuclear power, it has its up and downs. Therefore, the prudent 
course of action is to not put all of our eggs in one basket. 
We need to retain coal for reliable generation.
    As Mr. Hodanbosi has already said, one of the biggest 
problems we have with the greenhouse gas rule is they then will 
apply it to existing units, and they think this should be 
corrected.
    So on behalf of Buckeye Power and our cooperative 
consumers, I thank you, Mr. Chairman and committee members, for 
allowing me to testify.
    [Prepared statement of Mr. Ahern follows:]
    [GRAPHIC] [TIFF OMITTED] 75591.011
    
    [GRAPHIC] [TIFF OMITTED] 75591.012
    
    [GRAPHIC] [TIFF OMITTED] 75591.013
    
    [GRAPHIC] [TIFF OMITTED] 75591.014
    
    [GRAPHIC] [TIFF OMITTED] 75591.015
    
    Mr. Jordan. Thank you, Mr. Ahern. We appreciate your work 
and the organization's work. You have been extremely helpful 
over the years when we have dealt with cap-and-trade issue and 
other things. We appreciate that.
    Mr. Mackall will be recognized for five minutes.

                    STATEMENT OF TOM MACKALL

    Mr. Mackall. Chairman Jordan and members of the 
subcommittee, good morning.
    My name is Tom Mackall, and I am President of East 
Fairfield Coal Company. I appreciate the opportunity to appear 
before you once again.
    East Fairfield Coal Company has operations in both Ohio and 
Pennsylvania, and we employ over 160 hardworking Americans. We 
mine underground for clay, coal and limestone. We are a small 
business, and I am proud to say that my father worked for the 
company when it was started in 1934. I have been with the 
company for over 40 years, and my son works there today.
    In 2008, then Senator Obama stated in a press interview 
that under his preferred policy of cap-and-trade, anyone who 
wanted to build a new coal-fired power plant would go bankrupt 
in the process. He stated that under his cap-and-trade plan, 
electricity prices would necessarily skyrocket. He left out the 
fact that it would put thousands of people out of work.
    The Obama Administration has systematically waged a war on 
coal, attacking the industry on multiple fronts, and to date 
they have been very successful. What I would like to address 
today are the details of the war on coal, specifically On 
Permitting, they continue to raise new obstacles. Through the 
use of administrative guidance, the Administration has 
effectively implemented a policy where isolated, non-navigable 
waters would receive the full protections of the Clean Water 
Act.
    On Mining, their goal is to throw up as many regulatory 
hurdles as possible. MSHA's Mine Dust Regulation provides yet 
another example of the Administration's war on coal and its 
attempts to limit coal mining. Essentially MSHA is proposing a 
standard for respirable dust that cannot be met. On burning 
coal, they seem intent on punishing any utility that dares to 
burn coal.
    Perhaps the most expansive and most visible attack on the 
coal industry over the last few years has been the 
Administration's efforts to drastically curtail the percentage 
of our electricity that is generated from coal. Electricity 
prices are going to go up and the electric grid will be 
stretched even farther posing serious challenges for 
reliability.
    Last but not least is the issue for me for coal flyash. The 
flyash residue from coal combustion is used as a cement 
substitute in our cement block plant. The prospect of a 
hazardous material designation puts this type of use in 
jeopardy. On top of it all, I fully expect the second Obama 
term would focus on cap-and-trade while the President is 
following through on his promise to enact cap-and-trade by 
regulation. His allies in the Senate haven't given up on 
legislation. I expect them to try and move climate legislation 
in the next year.
    I would like to say this about CO2. One of my customers 
operates large industrial size greenhouses in Michigan and 
Canada. In order to promote quicker growth, they operate large 
CO2 generators which raise the concentration of CO2 in the 
greenhouses from 340 parts per million, which is the ambient, 
to over a thousand parts per million. All this CO2 is absorbed 
by the plants. I don't believe CO2 is really an issue in the 
natural world.
    Mr. Chairman, I would also like to briefly mention that the 
Administration is not the only player on the war on coal. Well-
funded environmental groups have done everything in their power 
to kill coal in America. For example, one of America's largest 
environmental groups teamed up with one of America's largest 
natural gas producers on the so-called Beyond Coal Campaign. In 
fact, it was recently discovered that the natural gas company 
donated $26,000,000 to the environmental group in a joint 
effort to destroy the coal industry. This reliance was not to 
be, however, as the same environmental group just announced a 
new campaign entitled Beyond Natural Gas.
    Mr. Chairman, the war on coal is real and is doing 
tremendous damage to our industry. The Obama Administration and 
its environmental allies are doing everything they can to stop 
coal from being permitted, to make it uneconomical to mine, and 
stop utilities from burning it. They discourage the use of the 
byproducts for beneficial uses. This is a highly coordinated 
aggressive effort to literally destroy the industry by 
attacking coal at every point of its life cycle.
    The Obama Administration's war on coal is a tragedy for the 
coal industry and the thousands of Americans that our industry 
employs who rely on us to provide affordable electricity.
    On behalf of myself, East Fairfield Coal Company and many 
thousands of people in our region who rely on coal for their 
livelihoods, thank you for supporting and conducting vigorous 
oversight of the Obama Administration and its war on coal. I 
have to remind you, though, that if definitive action is not 
taken to reverse the above-referenced policies, this industry 
is going to be in deep, deep trouble.
    Thank you for the opportunity to testify today, and I look 
forward to answering your questions at the appropriate time.
    [Prepared statement of Mr. Mackall follows:]
    [GRAPHIC] [TIFF OMITTED] 75591.016
    
    [GRAPHIC] [TIFF OMITTED] 75591.017
    
    [GRAPHIC] [TIFF OMITTED] 75591.018
    
    [GRAPHIC] [TIFF OMITTED] 75591.019
    
    [GRAPHIC] [TIFF OMITTED] 75591.020
    
    [GRAPHIC] [TIFF OMITTED] 75591.021
    
    [GRAPHIC] [TIFF OMITTED] 75591.022
    
    [GRAPHIC] [TIFF OMITTED] 75591.023
    
    [GRAPHIC] [TIFF OMITTED] 75591.024
    
    Mr. Jordan. Thank you, Mr. Mackall. You mentioned some of 
the environmental groups who also are fighting this attacking 
coal, but in the end, it is the Administration. The buck stops 
with them. They make the rules. They implement the law. They 
pass the policies.
    I want to go to you, Mr. Hodanbosi. You have an 
undergraduate degree from Cleveland State University in 
chemical engineering?
    Mr. Hodanbosi. Yes, that is correct.
    Mr. Jordan. You have a Master's degree in chemical 
engineering as well?
    Mr. Hodanbosi. Yes, that is correct.
    Mr. Jordan. I believe you said have you worked in this 
field for 40 years, almost 40?
    Mr. Hodanbosi. Almost 40.
    Mr. Jordan. 39 years. And all of that at the Ohio EPA?
    Mr. Hodanbosi. Yes.
    Mr. Jordan. So I am looking at your resume, biographical 
information. You started in 1973?
    Mr. Hodanbosi. That is correct.
    Mr. Jordan. So you have worked for Republicans and 
Democrats; you worked for all kind of folks?
    Mr. Hodanbosi. Yes.
    Mr. Jordan. You have interacted with the federal EPA for 
all those 39 years?
    Mr. Hodanbosi. Yes.
    Mr. Jordan. When you think about it, that is Nixon. That is 
Ford. That is Carter. That is Reagan. That is Bush. That is 
Clinton. That is Bush. And now Obama. That is a lot of 
experience working both side of the aisle.
    In that time, in that 39 plus years of working with all 
those administrations and the various governors, both 
Republican and Democrat, have you ever seen an administration 
who has this much animosity towards coal?
    Mr. Hodanbosi. Mr. Chairman, overall this current 
Administration has promulgated more rules that directly affect 
coal than any time in the history of the Clean Air Act and the 
Environmental Protection Agency.
    Mr. Jordan. Unprecedented action we have seen in the three 
and a half years of this Administration and the 39 years of 
experience you have had with both Republican and Democratic 
administrations, you have never seen it like this?
    Mr. Hodanbosi. Yes, that is correct is correct.
    Mr. Jordan. I am just curious. I don't know the answer to 
this.
    Have you ever testified before in that 39 years of 
experience? Have you ever participated in hearings like this?
    Mr. Hodanbosi. Yes, I have. In the U.S. Senate I testified 
once.
    Mr. Jordan. Who was president at that time when you 
testified?
    Mr. Hodanbosi. Boy, actually I do not know who was 
president. It had to do with air permitting. That was the 
issue.
    Mr. Jordan. So 39 years of your service, this is the first 
time you have testified and talked about the nature of the 
rules being promulgated and enforced by the Administration?
    Mr. Hodanbosi. Yes.
    Mr. Jordan. You would agree with the title of today's 
hearing to talk about the Green Agenda and the War on Coal? Do 
you think that is an accurate title? Do you think there is 
actually a war on coal we are seeing from the Obama 
Administration? I know these guys would, but I am curious what 
you would say.
    Mr. Hodanbosi. I didn't use that term, war on coal.
    Mr. Jordan. We did. I am asking if you agree with it.
    Mr. Hodanbosi. That is more I am going to say a term that 
was used in a political sense. I don't try to go down that 
line, but you can look at the rules that have been promulgated, 
what the effect is both in terms of direct coal mines or the 
uses.
    Mr. Jordan. I am forgetting my Ohio history. Who was 
governor in 1973?
    Mr. Hodanbosi. It was Gilligan.
    Mr. Jordan. So when you first were hired at the Ohio EPA, 
it was a Democratic Administration that you were hired in 
under, is that right?
    Mr. Hodanbosi. Right. That was Governor Gilligan.
    Mr. Jordan. I am running low on time. I want to get to our 
three other members who are more the experts on the coal 
industry.
    The blackout that we have been hearing about in India, I 
have not heard the cause of it. I am just curious your thoughts 
on that and if something like that could happen in the United 
States if we continue this effort to make it difficult to use 
coal to meet our electric and energy needs. I will start with 
you. Then we will go down to the line.
    Mr. Hodanbosi. Just quickly, I read about the blackout in 
India yesterday, but instead of it having gotten better, I 
heard on the radio today it has gotten worse. Instead of 
300,000,000 people without power, it is now up to 600,000,000 
people without power.
    Can it happen in this country? Well, I think we have 
experienced some blackouts in 2008, maybe it was a little 
earlier, in Ohio and in the east coast. So it has happened 
here, and it is certainly something to be concerned with.
    Again, part of my testimony, I submitted the article from 
the Columbus Dispatch that talks about the units that were 
going to be shut down during the last heatwave. They are in 
use. So where is that power going to come from? How are we 
going to replace it to keep the electricity going?
    Mr. Jordan. Let me quickly talk to the other three 
witnesses.
    I think I know the answer to this. The title of today's 
hearing is Green Agenda and War on Coal. Would you agree that 
is an accurate description of what is going on, Representative?
    Mr. Thompson. Yes, Mr. Chairman. I do think it is kind of 
unprecedented because administrations in the past at the 
federal level would have had a mutual interest seemingly in 
having inexpensive energy. Energy independence has been a goal 
for this country since the beginning of time. President Carter 
started the energy department with the stated goal to try to 
have energy independence, and it seems as though this 
Administration is driving us in the opposite direction.
    We are going to be more and more dependent on other sources 
of energy, more expensive sources of energy and probably from 
hostile countries. I think that is a problem. Clearly there is 
a war on coal, and we are feeling the effects of it already.
    Mr. Jordan. Mr. Ahern, you deal with electric cooperatives 
all over the state. Would you agree with the title of today's 
hearing, War on Coal?
    Mr. Ahern. I think probably the greenhouse gas rule that 
the EPA has proposed for new units is probably the signature 
that declares war on coal because it is a standard that the 
demonstrated technology is not available in order to meet that 
standard.
    Mr. Jordan. Mr. Mackall.
    Mr. Mackall. I obviously agree very much, and I would point 
out that Ohio's success in the past has been our coal-fired 
electricity providing economical power for industry. With the 
proposals they have now, what industry are we going to have 
left in Ohio? It is an attack on the economy, not just on coal.
    Mr. Jordan. Remember the title. We said the Green Agenda 
and the War on Coal. It is both. There is a war on coal. You 
have all made that clear. We have a gentleman who has 40 years 
of experience with the Ohio EPA who understands how different 
this Administration is from previous administrations. But it is 
also the green agenda. Mr. McKinley brought up Secretary Chu of 
the Department of Energy, the loan guarantee program at the 
Department of Energy. They took $16 billion of taxpayer money 
and gave it to 26 companies. 22 of those companies that got the 
money--this is Solyndra, this is Beacon Power, this is Abound 
Solar, three companies that went bankrupt, gave them your 
money--22 of those 26 companies had a credit rating of BB-.
    Mr. Mackall, you are in business. You know what that means. 
That means it was junk. No one would invest in it. But it was 
okay to give them your money. This is to add insult to injury. 
Not only are they at war on coal, but they are also saying oh, 
by the way, the tax money you do send to us, we are going to 
take it and give it to your competitors.
    Meanwhile, three of them have gone bankrupt and 22 of the 
26 companies that got your money would have never got any money 
in the private sector because they weren't a good risk.
    That is what is going on with this Administration. So when 
Mr. Hodanbosi says he has never seen it like he has with this 
Administration, it is true. We got all the facts to point it 
out. So we want to thank you all for being here. I went over 
time.
    The gentleman from Ohio will get extra time. Mr. Johnson, 
you are recognized.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Hodanbosi, in your background and with your experience, 
do you think that the EPA has an agenda that it is trying to 
effectuate by the promulgating of regulations that specifically 
impact the coal industry?
    Mr. Hodanbosi. I think it is pretty clear that all the 
rules that are coming out are overall specifically designed to 
certainly restrict the use of coal.
    Mr. Johnson. You know the Vice-President came through Ohio 
not too long ago touting a resurgence in manufacturing at the 
same time that the Administration has begun an all-out attack 
on the very energy sources to fuel any kind of resurgence in 
manufacturing.
    How do we fuel a resurgence in manufacturing if the EPA and 
the Administration persists with this attempt to shut down the 
coal industry? Where is the power going to come from to fuel 
manufacturing plants?
    Mr. Hodanbosi. Well, that remains a concern of not just 
Ohio EPA, but the Public Utilities Commission of Ohio on the 
rules that were promulgated. Both agencies filed comments to 
that extent. In order for us to have a strong industrial base, 
we need to have inexpensive electric power. That is just the 
bottom line. And if the costs go up too much, we will lose some 
of our heavy manufacturing to companies that move overseas 
where the power is cheaper.
    Mr. Johnson. Thank you very much.
    Mr. Mackall, uncertainty is one of the big issues that 
businesses talk to us about these days and the uncertainty 
around the regulatory process and the EPA's actions.
    How has uncertainty created by the EPA and the Clean Water 
Act permitting process harmed your ability to expand your 
business and create jobs?
    Mr. Mackall. Across the coalfields today, the uncertainty, 
especially with the election ahead of us and so on, most 
companies that I know of, maybe all companies I know of have 
stopped considering making further purchases of mining 
equipment because what are we going to do if Obama goes another 
four years? I feel my company will have a very difficult time 
continuing in the coal business.
    I am not going to buy any new equipment. It is starting to 
really stop the economy. I think that is another reason why we 
see the slow growth across the metric today. There is so much 
uncertainty with their economic policies.
    Mr. Johnson. Well, if you knew about the uncertainty, the 
red tape and the costs of EPA regulations in acquiring permits, 
would you still have gone into the coal mining business?
    Mr. Mackall. I have to answer that by going back to my coal 
miners. They are wonderful people. I suppose I would have 
retired a long time ago if it wasn't for them. There is a lot 
of great, intelligent, hardworking young coal miners who need 
jobs, and they will never find jobs like this again. Really the 
only reason I continue is for them.
    Mr. Johnson. As a coal operator, what would you say to a 
company or an individual that is trying to invest in new coal 
mining operations today? Based on what you know and the impacts 
that the EPA and their regulations or the Administration is 
having on the coal industry, would you invest in new coal 
mining operations today?
    Mr. Mackall. Not in the United States of America. We don't 
mine anything in the United States of America today. In fact, 
that is one of the points that they made with Solyndra, is that 
China controls all over our earth. So they are going to control 
many of the manufacturing anyway. I guess today we need to 
invest in coal mines in India and China. They are going to lead 
the world's economy if we continue with Obama's policies.
    Mr. Johnson. I appreciate your responding to those 
questions.
    Representative Thompson, first of all, I appreciate you 
being here, and I enjoy working with you. We cover a lot of the 
same territory in our respective districts, and I know that you 
are a passionate advocate for the coal industry as well.
    Can you give us a sense of how coal production affects the 
economy, your specific area that you represent?
    Mr. Thompson. Thank you, Congressman. I appreciate working 
with you very closely as well. As you well know, a lot of 
communities depend upon the revenues generated by these utility 
plants that are burning coal. Several school systems in our 
districts right now are very, very concerned about the shutdown 
of these utility plants and what it is going to mean to their 
revenue sources. We have so many people who are working in the 
mining business, particularly Noble, Washington. Monroe County 
is huge. So these are real individuals. These are real 
communities. These are real people. They count on coal for that 
certainty.
    We talked about uncertainty. There is a tremendous palpable 
sense of dread right now. As I discussed in my testimony, as we 
go around to county fairs, and I know you are experiencing this 
as well, people just say please stand up for coal. Please do 
something. Please see what you can do to stop what is going on 
in Washington with these regulatory agencies. Because everybody 
has got a family story. My uncle was in coal. My granddad owned 
a coal company.
    That future may not exist for people going forward just 
because of the uncertainty, because of this deliberate attempt 
to eliminate this energy source. We are not going to have that 
baseload power we need. We need that baseload power to make 
Ohio's economy go. Ohio can't be open for business if we're 
shutting down coal.
    Mr. Johnson. We talk about the effect on the consumer and 
on business. Let us look at it from a different perspective. 
The state requires revenue to function as well, to conduct its 
business. As a state representative, one of your legislative 
responsibilities is to help draft the budget for the State of 
Ohio.
    If coal production in the state continues to suffer more, 
what would be the effect on state revenues and on the budget? 
What would have to be done to counter the effects of the 
diminished revenues?
    Mr. Thompson. It is a huge impact. I don't have a specific 
figure for you, Congressman, but I think, again, it is a 
reliable source. We count on the jobs that it generates. We 
count on the jobs that it facilitates when we have inexpensive 
energy in the State of Ohio. You eliminate that component of 
coal--obviously we are excited about some of the shale things 
that are going on right now, but you also need the competition 
between the 2. You need that vibrant market that keeps rates 
down, keeps them cost effective.
    So there is additional uncertainty for our budget obviously 
if we are shutting down those plants because of the income tax 
it generates, the sales tax it generates. There is so much 
investment. We talked about those 11 additional jobs that each 
coal job relates to and creates and supports. So we need that. 
We need that basic undergirding of the economy or else Ohio is 
going to be in desperate straits.
    It was a struggle this year to try to solve an $8 billion 
budget hole. It is going to get a lot tougher if we don't have 
coal as an inexpensive energy source in Ohio because it impacts 
throughout the entire community.
    Mr. Johnson. Because it is actually a trickle down effect. 
It is not just the income taxes that the coal operators provide 
and the coal mining operations themselves provide, but it is 
also the manufacturing companies that are dependent upon energy 
that will shut down as a result of not having affordable 
energy. It is a really big impact.
    Mr. Thompson. It is heavy equipment manufacturers. They 
count on coal. Trucking companies, people that provide 
equipment, clothing, housing, everything else. It is vitally 
important. The sense of uncertainty in eastern Ohio is really 
strong right now, and I understand that. It is heartbreaking to 
hear about people who are being laid off.
    We talked about Monroe County. As well Ormet is a critical 
component there. Beyond Ormet there is not a lot going on there 
that is positive economically, and we want to see them continue 
and be strengthened.
    Mr. Johnson. Mr. Chairman, if you would indulge me for one 
more question.
    Mr. Jordan. Sure.
    Mr. Johnson. Mr. Ahern, if regulations prevent or seriously 
limit a co-op from burning coal, how would the underserved in 
rural areas like we represent here along the Ohio River, how 
will they receive their electricity?
    Mr. Ahern. Well, it probably will be from other sources 
that are likely to be more expensive.
    Mr. Johnson. You are talking about people that are already 
struggling day to day, unemployment in many places, some double 
digits, and yet they are going to have to pay higher utility 
rates to power their homes. It is even going to have a further 
crippling effect on those businesses that operate in those 
rural areas because as their cost to provide power to their 
business and manufacturing operations increase, they are going 
to have to probably lose people, not hire people.
    Mr. Ahern. Chairman Jordan and Representative Johnson, I 
think right now natural gas is relatively inexpensive. It is 
helping to hold down electricity prices, but once people turn 
away from coal, the only reasonable place you can turn to for 
baseload generation is natural gas. Natural gas prices are 
going to rise significantly. It is going to raise electricity 
prices for Ohio and many other areas of the country. They are 
going to see significant price increases.
    As Mr. Hodanbosi already mentioned, we are going to lose 
some generating capacity. With today's very low natural gas 
prices, nobody will build anything today. You won't be building 
a combustion turbine at today's low wholesale power prices. So 
we are going to wind the spring and do nothing, and then when 
that spring lets go, we are not going to have enough 
electricity, and it is going to drive up the price, and people 
are going to feel it and businesses are going to feel it.
    Mr. Johnson. Thank you, gentlemen.
    Mr. Chairman, I yield back.
    Mr. Jordan. Thank you, Mr. Johnson. In your questioning, 
you brought out the jobs that are associated with the coal 
industry and the positive impact that has on communities and 
the school districts.
    I would like to recognize Mr. Murray is with us, of Murray 
Energy. Of course, they employ a lot of folks and have a lot of 
positive impact on the countless number of communities across 
this state and across the country. So we appreciate him being 
with us today.
    With that, I recognize the gentleman from Pennsylvania, Mr. 
Kelly.
    Mr. Kelly. Thank you all for being here. I walked in with 
one of the gentlemen that is in the industry. We take for 
granted this idea that you flip the switch and the lights come 
on, hit the switch at night and the air conditioning comes on, 
or in the winter, you just turn up the thermostat a little bit 
and the house gets warm and the lights get lit.
    The fragility though of this grid and the inability to keep 
it at a level, a baseload, any of you please explain that. I 
think hearings like this are great because the general public 
doesn't understand how fragile this is. We start talking about 
brownouts and blackouts. The fact we haven't had any absolutely 
amazes me right now.
    The startup, you can't just start them back up again. Once 
these plants shut down, you don't start them back up again that 
easily. Am I right or wrong on that, Mr. Ahern?
    Mr. Ahern. Chairman Jordan and Representative Kelly, you 
are right. The grid is not a real stable system in terms of it 
doesn't tolerate upsets very well. A great example of that is 
August of 2003 when there was a disruption due to problems in 
northern Ohio, and we ended up with a blackout that blacked out 
55 million people that went from Ohio to Michigan, around the 
north side of Lake Erie, across upstate New York and down to 
New York City. So the grid, it is not self-correcting in that 
way. You have got to maintain the voltage. You have got to 
maintain the frequency to keep it stable.
    Mr. Kelly. So the importance of the grid, we all agree how 
critical it is. We put $16 billion in green energy. How much of 
an investment have we made in the grid? See, I never hear that. 
I always about renewables and the way we are going to go for 
renewables. That seems to be the push that this Administration 
has.
    Mr. Ahern. Chairman Jordan and Representative Kelly, one of 
the things that I think is not really appreciated broadly is 
that the only reason the grid is there is because it is being 
maintained. The idea that we have an antiquated infrastructure, 
I reject that idea. It is cared for. It is taken care of. Sure, 
we have seen deficiencies.
    You have got FERC. You have got NERC. You have got state 
commissions. You have got the individual utilities themselves. 
You have got regional transmission organizations. For Ohio you 
have got PJM. There is a tremendous amount of focus going on to 
maintain the grid.
    One of the things that the green agenda is doing that is 
going to present challenges to the grid is that the two major 
sources of power that they seem to strongly advocate are wind 
and solar and they are intermittent resources. They can come up 
quickly, but more importantly, they can come down quickly. 
Clouds can shield a solar field. The wind can die off rather 
quickly. Those dramatic changes, the rest of the grid has to 
really hustle to keep the voltage and the current in line. 
Otherwise, the system will go unstable as the blackout of 2003 
shows, the blackout of 1965 and other regional blackouts that 
have occurred.
    Mr. Kelly. We rely on sun that may not shine and wind that 
may not blow. Then we turn our back on all the other stuff we 
know, which is right beneath the surface. That is really 
amazing to me, that an Administration that many people will say 
these are the smartest guys--I don't know. When you run a 
business 1.7 trillion in the red every year, I don't know that 
I would go to any of those guys for business advice.
    One of the things I do want to point out, and I think you 
would all agree, while we face a global market that is out 
there for us all, we may never ever get to a point where we can 
compete on an hourly wage, but we can compete when our energy 
costs are lower than every other place in the world. So while 
you have wages that allow us to have a sustainable life form 
and a way of life we like, we can offset it by low energy 
costs, can we not? That is part of the formula of what drives 
the cost of a product either up or down.
    I look at this and I say if we are ever going to fair 
fight, shame on us. With what we have at our disposal, we put 
our men and women in a situation where they can't absolutely 
blow everybody else away, what are we thinking about. This is 
not the type of a country that I know of, ruin its greatness. 
We have it. It is here. It is affordable. It is abundant. It is 
accessible. Why in the world would we ever, ever turn our back 
on what we know and how we can offset the rising cost of wages 
that our people need and put ourselves in jeopardy. It makes no 
sense.
    Mr. Mackall, I know that your company is doing a great job. 
Mr. Murry's company is doing a great job. Why is there this war 
on coal? Why?
    Mr. Mackall. I have no understanding. It makes no sense to 
me. It is all over a phony CO2 issue, which I mentioned in my 
speech that my greenhouse customer totally, to me, disproves 
the science. I don't understand.
    I do know that all these plants they want to close right 
now, including two that I supply, two GenOn plants, they are 
slated to close, but they are running right now, or our grid 
wouldn't be functioning right now. There is no other source of 
electricity. Every available source of electricity is running 
right now to keep the electricity grid working. Without them, 
they would be dead.
    Mr. Kelly. It is baffling, is it not? Representative, I 
mean, I think there is some confusion sometimes. We think that 
the government is somehow just this benevolent monarch that 
showers on the people all these gifts. But the reality of it is 
every single penny that the government uses comes out of a 
hardworking American taxpayer's pocket. Unfortunately, only 
half of us are paying taxes anymore.
    Please explain, because I think these types of hearings 
allow the community to understand. Every single penny that Ohio 
needs, where does it come from?
    Mr. Thompson. Chairman Jordan and Representative Kelly, it 
comes from people who are actually working. I think the way 
that Ohio goes to work is Ohio has reasonable priced energy. 
That energy is supplied to the manufacturers. The manufacturers 
put people to work. They put people to work in mining coal. 
They put people to work in transporting it, shipping it and 
delivering it.
    The green agenda, I think, which concerns me the most, it 
is almost an article of faith, it is an alternative to 
religion, to the one that we understand, and it is a religion 
where they disdain fossil fuels. They consider fossil fuels to 
be the enemy of our health and our safety and our way of life.
    If you look at California's energy policy, you will see 
what America is going to look like shortly. It is a mess. They 
disdain energy sources that we know are reliable. They are 
increasingly trying to rely on wind and solar which cannot be 
effectively stored, cannot be transmitted very well. So it just 
makes this economy much more problematic, increases the 
uncertainty.
    We have 200 years of proven reserves of coal. Why aren't we 
doing everything possible to invest in that? If we need to make 
it cleaner, let us invest in clean coal technology. We have the 
ability to do that. As we do that, again, we get all the 
benefits that we are seeking.
    We have got reliable reserves. We know we can produce it 
cost effectively. That goes right into the economy, and it 
makes Ohio viable because it is an advantage for Ohio, not just 
for the nation. Right here in Ohio we have very inexpensive 
energy sources that can power the manufacturing sector comeback 
we would all like to see.
    Mr. Kelly. I know Pennsylvania is doing the same thing. I 
think all of us sit back, and it is one of these things where 
you scratch your head and kind of raise your shoulders and you 
just keep asking why. I do not know. After watching the current 
Administration, when they were running for office, they 
absolutely have kept their word to the American people, and 
they have certainly kept their word to coal.
    For the life of me, I just keep asking why. Nobody can ever 
answer that to me. Why do you want to do this? I guess the 
answer for all of us is because they can.
    With that, I yield back, Mr. Chairman.
    Mr. Jordan. Thank the gentleman for his good questioning. I 
want to ask one thing real quickly before we go on to 
Congressman McKinley.
    Mr. Ahern, when you and Congressman Kelly were dialoguing, 
you mentioned that you think the grid is maintained, but I want 
to make sure I heard accurately. You said with the focus you 
are seeing from this Administration on wind and solar, you 
think the likelihood of blackouts and the likelihood to 
maintain that quality grid is somewhat jeopardized, is that 
accurate?
    Mr. Ahern. Mr. Chairman, it is close. I would say it this 
way more specifically, it is going to be a great challenge. To 
put more intermittent resources onto the grid and maintain the 
reliability, it is a bigger challenge. I am not saying it is 
impossible.
    Mr. Jordan. So the conclusion is that the potential for 
blackouts, in fact, is greater with this unreliability of wind 
and solar being added to the mix?
    Mr. Ahern. Mr. Chairman, that is correct. It is a great 
possibility, yes.
    Mr. Jordan. Thank you.
    The gentleman from West Virginia is recognized.
    Mr. McKinley. Mr. Ahern, you mentioned in your remarks 
about flyash. For those people who are not aware, it is an 
unavoidable byproduct of burning coal.
    Mr. Ahern. Yes.
    Mr. McKinley. If you burn coal, you get an ash. The EPA 
since 2009 has been contemplating and developing and perfecting 
a piece of legislation, a new rule and reg. that would 
potentially classify flyash as a hazardous material.
    We know that flyash is used in concrete. It is used in 
brick and block. We know it is used in drywall. We know it is 
used in bowling balls. It is used in ceramic tile. It is used 
in a variety of beneficial recyclable uses.
    What are you doing at Cardinal? What are you doing with the 
flyash there?
    Mr. Ahern. Chairman Jordan and Representative McKinley, 
most of the flyash at Cardinal, we store it on site long term. 
Although we do sell some of the flyash, there are certain 
products--for example, you mentioned bowling balls. There is a 
certain part of the flyash that is very small, spherical hollow 
particles that are great for making plastics of improved 
quality and things like that.
    One of the other things that is not flyash directly, but it 
is indicative of the effort we go to, our scrubbers, the sulfur 
dioxide gets converted to gypsum, calcium sulfate. That can be 
used for drywall. Over half of the gypsum we produce at the 
Cardinal station is put on a barge, and taken downriver to a 
drywall plant and made into drywall. So we have looked for 
avenues.
    Much of the bottom ash has a different character than the 
flyash. It is a great aggregate for concrete.
    Mr. McKinley. But, if this becomes hazardous material? 
Don't you think consumers--I know that there are studies that 
say across America, there are 316,000 jobs involved in the 
recycling of coal ash and gypsum. All of those would be in 
jeopardy, wouldn't it, if the EPA has its way with the coal ash 
rule?
    Mr. Ahern. Mr. Chairman and Representative McKinley, it 
would be a huge problem if flyash was declared hazardous 
because of just the laws that would apply to the ways you have 
to protect workers, clothe them, ventilators, things like that, 
what we would have to do to our handling systems and things 
like that.
    Mr. McKinley. Have you been able to project at all what the 
cost to the consumer could be? Because that would be passed 
along through the Public Service Commission, that cost. Do we 
have a sense of what that could be to the consumers if they 
persist in making this a hazardous material?
    Mr. Ahern. Chairman Jordan and Representative McKinley, we 
do not have a good cost estimate of what the impact would be.
    Mr. McKinley. Let me move on. There was the other comment, 
I think it was Mr. Mackall, about the new performance 
standards, New Source Performance Standards. Did you not make 
that statement in your remarks about that?
    Mr. Mackall. Yes.
    Mr. McKinley. Again I think more people across America need 
to understand what that is all about. The mercury standard was 
to go back to the old plants to bring them into compliance. But 
under this new performance standard, this is for all the 
potentially new coal-fired generating plants. This would be 
their rule. That would put them in a bind. The real crux, as I 
understand, is coming down to the carbon capture and 
sequestration or carbon capturing utilization processes that 
could be available.
    I think you mentioned and others have said that technology, 
as we know, is currently not available and may not be available 
for 10 years or more. Yet the EPA is promulgating this rule. We 
have a hearing. We just put a bill in last week. I am honored. 
I know that Representative Johnson is on that bill with me and 
others in Congress. We are going to try get that rule held back 
until there is technology commercially available.
    In other words, they can set it up, but until it is 
commercially viable, that rule can't be enforced. We think that 
is a realistic response to this effort. We just got word 
yesterday that the leadership is going to have a hearing on 
that in September. For those of you that have an interest in 
that legislation, watch in Washington for September when we 
have the opportunity to be able to understand more how the EPA 
has gotten ahead of the curve here and not using science, but 
using ideaology as their driving force.
    Again, I thank you all for being here today. I hope to see 
you again in September. Thank you. I yield back my time.
    Mr. Jordan. Thank the gentleman. Now we will go quickly a 
second round. We will start with the gentleman from Ohio, Mr. 
Johnson.
    Mr. Johnson. Mr. Hodanbosi, I want to turn a little bit to 
the issue of the effects of these regulations on the supply of 
electricity. You have heard a little bit talk about 
reliability.
    From a reliability standpoint, how do you think Ohio coal-
fired power plants will be able to comply with Utility MACT and 
provide electricity during peak hours, such as in a heatwave 
like we have had here in Ohio recently?
    Mr. Hodanbosi. I guess the issue is not so much the plants 
that are operating and can comply. Mr. Ahern talked about the 
Cardinal plant and the expense, that he believes his plant can 
comply. So we will have some facilities that will be able to 
comply.
    The issue is all of the facilities that are closing and are 
not going to be in operation. Where are we going to get the 
capacity from to make up when we need the electricity?
    Mr. Johnson. Let us turn to that issue. How many 
electricity generating units have already been prematurely 
retired as a result of Utility MACT and do you have any idea 
how many are projected?
    Mr. Hodanbosi. Well, there 25 specific boilers that are 
shutting down as a result of the Utility MACT and other EPA 
requirements that have been announced. That is over 5000 
megawatts of capacity that will be gone in the next three 
years.
    Mr. Johnson. I know that you sit in a regulatory agency, so 
I don't know how many businesses you talk to, but do you have 
any sense of the direct effects of increased electricity costs 
as a result of EPA's regulations? Are companies laying off 
workers and shutting down businesses?
    Mr. Hodanbosi. Well, there certainly is a direct impact 
when electricity rates go up. The example of Representative 
Thompson of Ormet that is just down the river, the aluminum 
producer, that they have laid off some workers, and if the 
price of electricity continues to go up, that will be the 
course there. That is a huge employer in Ohio.
    Mr. Johnson. Mr. Ahern, will regulations like the Utility 
MACT increase the cost of electricity that you provide to your 
customers, and what implications does this have? We have dealt 
with this a little bit, but I want to give you a chance to 
expound on it.
    What implications does this have for economic growth and 
job creation in rural areas like your company serves?
    Mr. Ahern. Mr. Chairman and Representative Johnson, it is 
unclear to us exactly how the Utility MACT might expose us to 
additional costs. We are hoping that it doesn't, but as I 
mentioned previously, one of the big uncertainties is the 
monitoring requirements. Mercury is just so dilute in 
concentration. It is extremely difficult to measure. And what 
sort of testing requirements will they have, what sort of 
testing frequencies. Tests particularly with very dilute 
concentrations, sometimes you can actually be performing well, 
but the tests will raise doubt. So you could be required to 
spend a lot of money on testing, a lot of money on monitoring 
equipment.
    Overall, it is difficult to say exactly how it is going to 
impact us, but as I described, the accomplishments that we have 
had so far have added up to a billion dollars of capital costs 
and $20 a month for the average consumer. We don't think it is 
appropriate to add any more costs on top of that because our 
customers have already paid for significant improvement in air 
quality.
    Mr. Johnson. Rural cooperatives like yours, do you have 
reliability concerns about the Utility MACT compliance, 
particularly during peak hours?
    Mr. Ahern. Mr. Chairman and Representative Johnson, any 
time you do anything to the old, it can affect the whole 
electric system. Everybody that is connected to it is 
potentially impacted. Even though our plants may be fine, may 
be well controlled, may meet the standards, if others around us 
retire, if there reliability problems because a lot of 
generation is taken out, we will be impacted, and probably the 
most direct and costly way is the possibility of blackouts.
    Mr. Johnson. If the co-op wants to build a new coal-fired 
power plant, will it be able to given the New Source 
Performance Standards for greenhouse gas emissions?
    Mr. Ahern. Mr. Chairman and Representative Johnson, I don't 
see with the proposed greenhouse gas standard how anyone could 
take on the task of building a new coal plant.
    Mr. Johnson. Representative Thompson, let us come back to 
you. We talked a little bit before about the effect of reduced 
coal production on state revenues. What about local government 
revenues? I know you and I talk to a lot of local government 
folks that are struggling to fund their sewer upgrades, their 
water upgrades, also a part of the regulatory process that is 
being mandated on them, and yet they don't have the funds to be 
able to do that.
    What effect on local governments would diminished revenues 
as a result of lower production and use of coal have?
    Mr. Thompson. Mr. Chairman and Congressman Johnson, I 
think, again, in more of a micro way, they count on all the 
local jobs, the people that are paying income tax. They count 
on the services that are used locally by these coal companies 
and the utility companies. Again, their base revenue sources 
are very much dependent on these companies.
    We talk about local government. We talk about schools that 
are going to be suffering, school districts. In many cases, the 
utilities are partners with local charities and things. There 
is so much. It radiates through so much of that local economy. 
It is obviously very tough for local governments right now 
because of revenue at the state level and also at the local 
level. So any variable that you introduce into that equation is 
really going to harm them in a significant way.
    This is something that doesn't have to happen. This is 
something that is happening in Washington by design. And this 
war on coal and this disdain for, again, our electric utilities 
and also our coal producers and the livelihoods that are 
dependent upon it, it is a huge impact. You and I are 
experiencing it. We hear it. The discussions and palpable fear 
in local communities is on the rise.
    I hope we can turn this back. I hope we can reverse this. A 
lot of it is under way, and it is hard to get bureaucracies to 
move in the right direction. But I appreciate what this 
committee is doing to call attention to it, and I will do 
everything I can in the State of Ohio to be of help.
    Mr. Johnson. Thank you. Mr. Chairman, I yield.
    Mr. Jordan. I now recognize Mr. Kelly for a second round.
    Mr. Kelly. One of the things we talked about, Mr. Ahern, 
was the grid. When I am back in western Pennsylvania and I get 
a chance to visit with the folks that I represent, I talk to a 
lot of the machinists.
    I talked to one of my friends up in Meadville. He was 
saying, hey, are you guys going to get this thing taken care 
with the grid? Are you guys going to do something about this? 
Because the problem I have is that I can't afford the surge. I 
said, what do you mean the surge? He said, I can't turn these 
machines on and then have there be a dip in the power because 
then I have to go back and restart and recalibrate everything. 
He said, you know the cost of doing that? I said, no, I have 
absolutely no idea the cost. He said, well, I will tell you 
what. It is going to put us out of business.
    The reliability of the grid is also one of those things 
that is absolutely critical. Mr. Ahern, when we talk about all 
these different alternative uses, you look at what we have done 
with coal over the years, I am talking about something that is 
so consistent and so reliable and so affordable, what is the 
purpose in all that? I know you talked a little bit about the 
grid, keeping it up, but the reality of it is these surges also 
really affect these businesses and their ability to power up 
the machines.
    How often do you see that? It is going to become more and 
more prevalent I would think.
    Mr. Ahern. Mr. Chairman and Representative Kelly, you bring 
up a very good point. It is part of the evolution of 
technology. There is so much greater use of electronics and 
electronic controls and things like that, much more than there 
were decades ago. This is the kind of equipment that is not 
very tolerant of even a fraction of a second blip in the 
voltage or the frequency.
    So it is more and more important that the grid reliability 
be maintained. I am telling you from my experience the 
utilities know how to maintain grid reliability. They know what 
needs to be done. It is not rocket science, but it is 
fundamental. You have got to have enough grid. You have got to 
have enough transmission. You have got to have enough 
generators, and you have got to deal with the upsets.
    As I mentioned before, the biggest challenge that I see 
coming for the grid is the intermittent resources growing to be 
a larger and larger percentage of the supply which is going to 
introduce an environment that is not the norm that they are 
used to, and there is going to be a learning curve. And during 
that learning curve, there are probably going to be problems.
    Mr. Kelly. But it doesn't make sense to me for us to go 
away from something we already know. Maybe you can help out. My 
friends in the business tell me about the secondary power 
sources, how you have the backups. It is almost like one of 
these big diesel trucks. When they go in and grab a cup of 
coffee, they don't shut them down. They leave them running 
because it is cheaper to leave them run than it is to shut them 
down and start them back up again.
    That is where I keep going to with this grid and the 
availability, that you have this backup system in place so when 
you have the dip, the other kicks in so you don't have those 
surges. This is what bothers me. If we keep shutting down these 
plants, these coal-powered electric producing plants, there is 
a dire effect that happens in industry with this.
    A guy like me that sells cars and trucks, I get it. I know 
why the guys leave the diesels running. What I can't understand 
is why the government wants to shut down our most reliable 
source of electric generation. I don't get it. Is there 
something I am not getting?
    Mr. Ahern. Mr. Chairman and Representative Kelly, I think 
you are getting it. It is just very important to maintain the 
reliability. Now, the grid operator, which today in our region 
of the country is PJM, they have the oversight of all the 
transmission. They are the ones that give dispatch orders to 
the generators, pick up, drop off. They always keep some 
generators at part load so that they are prepared to pick up 
load or to reject load.
    As Mr. Hodanbosi has mentioned, when some of these coal 
plants get taken out over the next few years, we are entering a 
new environment. As I mentioned previously, hardly any new 
generation is being built today because wholesale power prices 
are so low that nobody sees an opportunity for a good 
investment to be made.
    And this is even more so in states that have chosen to go 
to a greater use of markets. In Ohio it is one of those for the 
investor and utilities, competitive markets and market 
suppliers, and a lot of these marketers, they are sharp 
businesspeople. They say, well, I don't want to build a new 
plant today because I don't know that five years from now, 
there isn't going to be overbuilding. That is another new 
element that we now have that we didn't have before, which is 
another urge for caution and not to go with full abandon in the 
direction we are going.
    Mr. Kelly. Mr. Jordan and I have sat in on a number of 
these hearings. One of the things I find absolutely astounding 
is that we would pour $16 billion into renewables. That sends a 
signal to the private investors. They don't want to put that 
money in themselves until the government says, we will 
underwrite it. You don't have to worry about that. Then we find 
out from a lot of them as soon as they saw what was going on, 
they got out of that investment so fast, when they found out 
this stuff was going upside down, it wasn't going to be 
subsidized by the American taxpayers. It is amazing to me that 
we have turned our back on a lot of things that we have.
    Again, I keep going back to this. I still keep asking 
myself why. Why are we abandoning a source that has been so 
reliable, provides so many jobs, provides so much revenue to 
run this country, and turning our backs on it and saying we 
want to try this other stuff? It just does not make any sense. 
It is a waste of taxpayer money. I thank you for being here.
    Mr. Chairman, I yield back.
    Mr. Jordan. Thank the gentleman.
    We will recognize Mr. McKinley for a short round and then 
get the second panel in here.
    Mr. McKinley. Thank you again, Mr. Chairman.
    We have spent a lot of time here today talking, and it 
seems like the majority of the questions had to do with the 
utility companies and what it is going to do to the consumers 
and businesses. But I think we have to be equally cognizant of 
the mining industry.
    Mr. Mackall, I am going to focus some of my attention to 
you. We know the rules, the Utility MACT, the air transport 
Rules. We know all that. The New Performance Standard, we know 
what it is going to do to the utility. Let us go back to the 
men and women in the mines where they are going to produce the 
coal. I looked at here a series of things. Bill Johnson has 
worked very hard. I have seen him work the floor on the Stream 
Buffer rule that is going to open up opportunities for that.
    We have water permitting, the water conductivity. There are 
6 bottled waters in America that if we went to a mine site and 
we drank this water and poured some of it on the ground, we 
would be in violation of the EPA water conductivity standards. 
That just is incredible, what it is doing to our industry.
    We have got the use of flyash being proposed not to allow 
it to be used as a buffer on acid mine runoff. We have got the 
roadblocks that the Sierra Club and others are trying to put up 
about shipping coal overseas. If we can't burn it in America, 
perhaps someone else can do it and put our men and women back 
to work with that. I am sure there are more from your industry. 
I am not in the coal industry.
    But what actions of the EPA do you think have been the most 
onerous? If Congress could focus on one issue when we go back 
between now and the end of the year, which would be the one 
that would affect the mine industry that should be reversed 
first?
    Mr. Mackall. That is a very difficult question to answer. 
We talked about all the different ways we are being attacked, 
and they are all important. The cumulative effect of all of 
them is what is really significant. I mean, to get a permit, it 
is a ridiculous tremendous maze you have to go through. I am 
convinced there are a lot of the people in the bureaucracy that 
don't want to give us a permit. They have embraced this war on 
coal. They don't want us to have permits. They throw up even 
more personal roadblocks in the middle of the process.
    We have spent years trying to get permits, whether it is 
Army Corps permits or mining permits. They are getting a little 
better in Ohio finally. But it is the cumulative of the whole 
thing.
    Mr. McKinley. You got a group of individuals here today 
that are focused on trying to push back on this war on coal to 
get some common sense. I am one of two engineers in Congress. 
So I am trying to use my background and experience. I want to 
make sure I am fighting based on science. But I need to know 
what your priority is. So I am trying to hear from you what 
would be your top priority, first bill to get repealed?
    Mr. Mackall. Our most important issue, I guess, focuses on 
our customers. We have lost many, many customers over the years 
that have quit burning coal. I want to make sure that our 
customers continue to burn coal.
    It amazes me when I see the records and I see how clean the 
air is. I have never seen the air so clean. I used to be in 
Pittsburgh. It was a horrible mess. Cleveland was a big mess. 
Youngstown was a big mess. The air is so clean now. We have 
accomplished so much. I don't want any more regulations to 
impact on the customer base that is left that we can sell coal 
to. We can at least deal with the other regulations as long as 
we have a customer left at the end of the day. If there is no 
customer, then why even fight it.
    Mr. McKinley. I yield back my time.
    Mr. Jordan. I thank the gentleman, and I thank the panel. 
Let me finish with just one question here. Just to dispel this 
idea that this is nonpartisan, I mean, I think it has been 
clear based on what we have heard, this Administration is 
different, different than previous Republican administrations, 
different than previous Democratic administrations. This is 
just the fact, that this Administration is, in fact, engaging 
in a war on the coal industry and has this green initiative.
    Mr. Mackall, I bet you employ both Republicans and 
Democrats in your business, is that accurate?
    Mr. Mackall. We don't ask that question.
    Mr. Jordan. I won't ask you which one you are either.
    Mr. Mackall. I guess we are 98 percent Republican.
    Mr. Jordan. Some of the guys that work for you in your 
organization, I am sure people who work in the coal mining 
industry aren't all Republican; is that right?
    Mr. Mackall. No, they are not.
    Mr. Jordan. You make no distinction about it.
    Mr. Ahern, in the cooperatives that you represent and 
Buckeye Power, I am sure you have got both parties in your 
organization.
    Mr. Ahern. Certainly do.
    Mr. Jordan. Mr. Thompson, if my memory serves me right, 
your district for many years represented by Democrats in the 
general assembly. When you are out talking with constituents, I 
bet you have had Democrats come up to you and say they are just 
as concerned about what this Administration is doing to coal as 
you are.
    Mr. Thompson. Very much so.
    Mr. Jordan. The Republicans are.
    Mr. Thompson. It is not a partisan issue. We want to allow 
people to continue to work, and they can't do that with this 
war on coal.
    Mr. Jordan. Mr. Hodanbosi, we determined in the first round 
of questions with you that you have been in this business for 
almost 40 years, worked for, if I have got my history right, 
Gilligan, Rhodes, Celeste, Voinovich, Strickland and Kasich, 
all administrated both Republicans and Democrats in there. You 
have worked with and interacted with what would have been 
Nixon, Ford, Carter, Reagan, Bush, Clinton, Bush, Obama. So you 
have worked there, too. And you definitely see this 
Administration as different than other administrations that you 
have had the privilege and opportunity to work with.
    Mr. Hodanbosi. Yes, that is correct, Mr. Chairman.
    Mr. Jordan. I want to thank all of you for being here today 
and your important testimony. We appreciate what you do in 
these communities and the service you provide the taxpayers of 
this great state.
    We will go now to our second panel.
    [Recess.]
    Mr. Jordan. We have the second panel with us, Mr. Shawn 
Garvin, who is the administrator of Region 3 of the 
Environmental Protection Agency and Mr. Bharat Mathur who is 
deputy administrator of Region 5 of the United States 
Environmental Protection Agency.
    We want to thank you both for being here. You guys know how 
this works. You have to stand up and be sworn.
    [Witnesses sworn.]
    Mr. Jordan. Let the record show that both witnesses 
answered in the affirmative.
    Again, I know you guys have done this before, but you get 
five minutes. And I think, if I understood from our staff, just 
Mr. Garvin is going to make his opening statement and then be 
ready for questions.
    Mr. Garvin, you are recognized for five minutes.

                  STATEMENT OF SHAWN M. GARVIN

    Mr. Garvin. Good morning, Chairman Jordan and Members of 
the Subcommittee. I am Shawn Garvin, Regional Administrator of 
the United States Environmental Protection Agency, Mid-Atlantic 
Region, Region 3. I am here today to testify on behalf of EPA's 
Great Lakes and Mid-Atlantic Regions and am joined by my 
colleague, Deputy Regional Administrator Bharat Mathur, of 
EPA's Great Lakes Region, which includes Ohio.
    As the Agency has indicated to your staff, we are 
responsible for the implementation of regulations designed and 
promulgated in EPA's headquarters offices in Washington, D.C. 
in both the Mid-Atlantic and Great Lakes regions respectively. 
As the agency has also indicated to your staff, while questions 
that relate to specific national efforts fall outside of our 
responsibility, we are more than happy to refer those questions 
to the appropriate EPA staff.
    Let me begin by being clear, EPA does not have a ``war on 
coal.'' The actions of the agency are based on sound science 
and the law. I will focus my testimony on EPA's work with clean 
water.
    Mr. Chairman, as you know, our communities' businesses 
depends on our nation's water for drinking, swimming, fishing, 
farming, manufacturing, energy development, tourism and other 
activities central to the American economy and quality of life. 
Without protections at the state and federal level, many of 
these activities would be threatened by the polluted water. 
Congress recognized this in a bipartisan fashion when it passed 
the Clean Air Act of 1972, which was signed by President Nixon.
    While the agency works very closely and collaboratively 
with the state partners, the Clean Water Act requires that EPA 
oversees these authorized state programs to ensure the goals 
and requirements of the Act are being met.
    Relating to the permitting of certain types of coal mining 
projects, the Clean Water Act designated the U.S. Army Corps of 
Engineers as the permitting agency for discharges of dredge and 
fill materials. EPA may provide comments and information to the 
Corps on specific permit applications and may request the 
Assistant Secretary of the Army for civil work review certain 
permit decisions.
    Also, the Act authorizes EPA to prohibit, deny, restrict or 
withdraw specifications of the fill disposal sites, an 
authority EPA has exercised only 13 times since 1972. Our 
regional office works constructively with the Corps, states and 
other partners to provide input that may assist applicants in 
developing environmentally sound projects in cases where 
discharge of dredge or fill material into the nation's water is 
being proposed.
    I know the Committee has a special interest in Appalachia 
surface coal mining. Our work here is informed by peer-reviewed 
science documenting the environmental and public health impact 
of certain unsustainable mining practices of the past. Recent 
studies point to environmental impact and challenges from 
surface coal mining that were largely unrecognized even 10 
years ago. Between 1992 and 2002, more than 1200 miles of 
Appalachia headwater streams had been impacted by Appalachian 
surface coal mining practices.
    EPA has documented ecologically detrimental changes to 
Appalachia's ecosystems associated with impacts from surface 
coal mining. Today EPA works closely with partners in the 
federal government, the states and industry to ensure that 
projects can move forward when designed to minimize 
environmental impacts.
    Let me be clear, EPA has not established a moratorium on 
coal mining. EPA is not blocking or delaying National Pollution 
Discharge Elimination Systems permits from being issued. In 
fact, EPA has issued very few objections that would prevent 
NPDES permits for mining discharges from being issued.
    Of the 283 draft NPDES permits for mining discharges 
received by EPA from West Virginia, for example, between July 
21, 2011 and June 25, 2012, EPA issued a specific objection to 
the draft permits less than 2 percent of the time. In those 
cases, EPA is continuing work with the state and other 
applicants to resolve issues that are the basis for EPA's 
objections. In June 2012, the average time for EPA to review 
for NPDES permits for mining discharges in West Virginia was 11 
days. The State of Ohio has chosen to cover surface coal mines 
under general permits where appropriate.
    We are committed to working together with our states and 
federal partners, coal companies and the public to ensure that 
the decisions under the Clean Water Act are consistent with the 
law and best available science. Families should not have to 
choose between healthy water and a healthy economy. They 
deserve and can have both.
    Thank you for the opportunity to be here today. Bharat and 
I will be pleased to answer any questions you may have. Thank 
you, Mr. Chairman.
    [Prepared statement of Mr. Garvin follows:]
    [GRAPHIC] [TIFF OMITTED] 75591.025
    
    [GRAPHIC] [TIFF OMITTED] 75591.026
    
    [GRAPHIC] [TIFF OMITTED] 75591.027
    
    [GRAPHIC] [TIFF OMITTED] 75591.028
    
    [GRAPHIC] [TIFF OMITTED] 75591.029
    
    [GRAPHIC] [TIFF OMITTED] 75591.030
    
    [GRAPHIC] [TIFF OMITTED] 75591.031
    
    [GRAPHIC] [TIFF OMITTED] 75591.032
    
    Mr. Jordan. Thank you, Mr. Garvin. Mr. Garvin, you said in 
your testimony, if I heard it correctly, that EPA does not have 
a war on coal. Do you stick by that?
    Mr. Garvin. Yes.
    Mr. Jordan. What about this Administration, do you think 
this Administration is waging a war on coal?
    Mr. Garvin. No.
    Mr. Jordan. Do you think there is a bias towards other 
forms of energy and a bias against coal?
    Mr. Garvin. No.
    Mr. Jordan. Were you sitting here in the audience with the 
first panel, Mr. Garvin?
    Mr. Garvin. I was.
    Mr. Jordan. You heard what all four witnesses had to say?
    Mr. Garvin. Yes.
    Mr. Jordan. Specifically Mr. Hodanbosi, you heard what he 
had to say in his 40 years of experience in working for the 
Ohio EPA?
    Mr. Garvin. Yes.
    Mr. Jordan. How many years have you worked for the EPA?
    Mr. Garvin. Since 1997.
    Mr. Jordan. What is that? 15?
    Mr. Garvin. 15 years, a little over.
    Mr. Jordan. So he has got 25 more years working. You are 
saying his description of this Administration is not accurate?
    Mr. Garvin. I am saying I am not qualifying what he said. I 
am telling you from----
    Mr. Jordan. You don't think it is a bias from an 
Administration that takes $16 billion of taxpayer money and 
gives it to 26 companies, 22 of which have a BB-rating from 
Fitch on their credit rating and three of those 22 companies 
have gone bankrupt? You don't think that is a bias against 
alternative forms of energy?
    Mr. Garvin. That is outside of my role and 
responsibilities.
    Mr. Jordan. You just answered my question a little bit ago. 
I said, do you think there is a bias towards other forms of 
energy and a bias against coal? You said, no. Now I am asking, 
you don't think there is a bias when 26 companies get tax 
dollars, 22 of them have a BB-rating and three of them have 
already gone bankrupt?
    Mr. Garvin. I can only respond based on what we are doing 
in EPA Region 3.
    Mr. Jordan. You mentioned Region 3. I know there are 10 
regions. Let me play for you some of the statements made by 
people in other regions who have the same job that you have but 
oversee different parts of the country.
    [Video played.]
    Mr. Jordan. Mr. Garvin, let me take them in order. The 
first, Mr. Armendariz, do you agree with his statement where he 
talked about people who aren't doing what they want? He used 
the term. I don't like to say the term. But do you agree with 
the way he described how he was going to treat people in this 
particular industry?
    Mr. Garvin. I can only focus on what I do in Region 3 and 
how we approach it.
    Mr. Jordan. But he has the same responsibility in his 
region that you have in yours. All I am asking is, do you think 
he was appropriate in his comments and how he described it, or 
do you think his comments were appropriate?
    Mr. Garvin. I can only respond to what we focus on.
    Mr. Jordan. What about the second one? You saw on the film 
Ms. Hedman accepting petitions from people supporting a rule 
that the first panel testified about how difficult it is for 
them to do their business and create jobs?
    Do you think it is appropriate for an administrator to 
accept petitions from a group supporting a rule and show that 
acceptance by her conduct? Do you think that is appropriate?
    Mr. Garvin. The agency receives comments from all sectors 
on all rules, and we treat them all the same.
    Mr. Jordan. Do you typically show up at a press conference, 
at a rally and applaud those people for giving you those 
petitions?
    Mr. Garvin. I can only talk about what I do in Region 3.
    Mr. Jordan. Have you ever shown up at a pep rally and 
applauded the people who bring you petitions, 
environmentalists?
    Mr. Garvin. I have not.
    Mr. Jordan. You have not?
    Mr. Garvin. I have not.
    Mr. Jordan. Never?
    Mr. Garvin. Never.
    Mr. Jordan. What about the third clip where Mr. Spalding is 
speaking at Yale University and said Lisa Jackson has put forth 
a very powerful message to the country, if you want to build a 
coal plant, you have got a big problem?
    Mr. Garvin. I can't comment on that. I can only focus on 
what we do in Region 3. We focus on----
    Mr. Jordan. Lisa Jackson, was she not telling the truth 
there?
    Mr. Garvin. I believe the administrator can speak for 
herself.
    Mr. Jordan. Do you think the statement she made, if you 
want to build a coal plant, you got a big problem, do you think 
that is accurate?
    Mr. Garvin. I am not familiar with that statement, so I 
can't respond to it.
    Mr. Jordan. Well, I am reading it to you. Lisa Jackson has 
put forth a very powerful message. This is Curt Spalding who 
has the same job in Region 1 that you have in your region. He 
says, she said it plainly, if you want to build a coal plant, 
you got a big problem.
    Mr. Garvin. I don't know what statement he is referring to, 
so I can't comment on it.
    Mr. Jordan. It has to do with what the law and policy 
suggested. And it is painful. It is painful every step of the 
way. Do you agree with that statement or not?
    Mr. Garvin. That is Mr. Spalding making a statement about 
what the administrator may or may not have said. I am not 
familiar with what the administrator said. So I can't comment 
on that.
    Mr. Jordan. Mr. Mathur, is there a reason why Ms. Hedman 
was not able to join us today? Do you know why you are here? 
She is your boss; is that right?
    Mr. Mathur. That is right.
    Mr. Jordan. Why wasn't she able to join us?
    Mr. Mathur. She had a longstanding engagement with senior 
members of 15 federal agencies that she found it very difficult 
to cancel.
    Mr. Jordan. That is more important than coming to an area 
of the country where jobs have been lost because of policies 
from this Administration and speaking to a Congressional 
hearing?
    Mr. Mathur. It is not more important. It had to do with----
    Mr. Jordan. No, no. By definition you said she had a 
longstanding meeting. She went there and didn't come here, so 
obviously to her it is more important that she is there than to 
be in southeast Ohio talking about how jobs are impacted by 
this Administration in three states, Ohio, Pennsylvania and 
West Virginia. She felt that was more important than coming 
here today and having to answer why she was at a rally 
accepting petitions from people who want to make it difficult 
for jobs to continue to be available in these three states.
    Mr. Mathur. She was meeting, Mr. Chairman, with 15 senior 
officials of 15 federal agencies about the----
    Mr. Jordan. Yeah. I got that the first time.
    Mr. Mathur. She was not able to cancel.
    Mr. Jordan. I got you.
    Mr. Mathur. She regrets not being here.
    Mr. Jordan. 15 people in this Administration are more 
important than four members of Congress and the thousands of 
jobs at stake in southeast Ohio, West Virginia and 
Pennsylvania. I got that.
    Mr. Mathur. I can't speak for her beyond what I just said.
    Mr. Jordan. Do you think it was appropriate for her to 
stand at a rally and accept petitions and thank the people for 
giving us petitions that are going to impact the very jobs we 
are here talking about today?
    Mr. Mathur. I know when she was first invited to meet with 
that group, she declined. It was only when they assembled 
outside our building in fairly significant numbers and were 
actually noisy and demonstrations that she decided to go down. 
I think she would have met with anyone who would have asked to 
meet with her under those circumstances.
    Mr. Jordan. Well, she wouldn't meet with us. She might with 
anyone, but she won't meet with us because we asked her. We 
asked her to come today. She said no, I would rather hang out 
with 15 people in the Administration than talk with four 
members of Congress in southeast Ohio where jobs are being 
lost, plants are being closed and communities are being 
devastated because of the policies of this Administration.
    That is not just Jim Jordan talking. That is not the three 
members of Congress talking. That is the first panel talking 
that you just heard. That is one with 40 years of experience in 
the EPA who was hired by a Democratic administration saying the 
same thing.
    Mr. Mathur. I am hopeful, Mr. Chairman, that I can respond 
to questions regarding Region 5 procedures to your 
satisfaction.
    Mr. Jordan. We appreciate you being here. We do appreciate 
that someone from Region 5 was able to come here even though 
the administrator was not able to.
    I see I am over time. I will yield now to the gentleman 
from southeast Ohio, Mr. Johnson.
    Mr. Johnson. Mr. Chairman, thanks.
    I appreciate you gentlemen being here. I am actually 
sitting here kind of chuckling, Mr. Garvin, because of your 
arrogance and your tone of adversarialism in responding to the 
questions that have been proposed to you already. You are 
making the case that we are here trying to make to the American 
people and the people of eastern and southeastern Ohio and West 
Virginia and other places across this country that are 
dependent upon coal, your bury your head in the sand responses, 
``that is not my responsibility, it is not within my scope.''
    Let me ask you a question. I sat with one of your superiors 
not too long ago, and I asked them the question about the 
impacts of the regulations coming out of your department, out 
of the EPA, and its effect on industries that are critical to 
national security. That individual said to me, ``Mr. Johnson, 
it is not my job to be concerned about national security. It is 
my job to protect the air.''
    Do you subscribe to that same philosophy Mr. Garvin, that 
you have no responsibility in your actions to the national 
security of the United States?
    Mr. Garvin. I think we all have a specific role to play.
    Mr. Johnson. I asked a very specific question. I don't want 
innuendo. I said, do you subscribe to the philosophy that that 
director said, that it is the EPA's responsibility not to be 
concerned about national security, but to be concerned about 
the air?
    Mr. Garvin. I have a certain role in the Administration 
and----
    Mr. Johnson. Are you concerned about national security?
    Mr. Garvin. I think everybody is concerned about it.
    Mr. Johnson. No. I asked you, are you concerned in your 
role and responsibility about national security? That is a yes 
or no question, Mr. Garvin.
    Mr. Garvin. My role is to discharge the various statutes.
    Mr. Johnson. What you are telling me is no. Again, your 
arrogance and your tone of adversarialism and your waffling on 
the questions is proving exactly to the American people what we 
are trying to demonstrate here today, that not only does this 
Administration have a war on coal, but you have a war on the 
very idea of American exceptionalism and you have no concern 
whatsoever for national security and other implications of your 
actions. You should be ashamed, Mr. Garvin, you and everyone 
else in the EPA that subscribes to that philosophy.
    What is your background? What did you do before you came to 
the EPA?
    Mr. Garvin. I worked in local government.
    Mr. Johnson. You worked in local government. In your 
testimony, you talked about how EPA's decisions are based on 
valid science. How much education and experience do you have in 
science? Have you ever been a scientist?
    Mr. Garvin. I have not.
    Mr. Johnson. Have you ever worked in an industry where 
science was a requirement of your job?
    Mr. Garvin. I have not.
    Mr. Johnson. Have you ever worked as a chemist or biologist 
or any of that?
    Mr. Garvin. I have not.
    Mr. Johnson. Then you don't know personally, do you, 
whether or not EPA's policies are based on sound science?
    Mr. Garvin. I do.
    Mr. Johnson. How do you know that? What are your 
qualifications to tell us? What is your expert opinion?
    Mr. Garvin. I have been doing this for 15 years.
    Mr. Johnson. But you have no background in science, Mr. 
Garvin. Tell us how you know that the EPA's policies are based 
on sound science.
    Mr. Garvin. Because I know the science, and I have----
    Mr. Johnson. No, you don't. You just testified that you 
don't know the science, Mr. Garvin, because you never worked in 
a scientific field. How do you know that it is based on sound 
science?
    Mr. Garvin. I have been doing this in this field.
    Mr. Johnson. You can testify to this Subcommittee what you 
hear from the EPA officials above you in terms of sound bites 
and talking points to advocate sound science when we can prove 
through industry proof that it is not sound science, that it 
requires compliance technologies that aren't even available. 
You can testify to that, but yet you can't answer simple 
questions that are directed to you by the Chairman of this 
Subcommittee and the representatives here about what your roles 
and responsibilities are.
    Let me submit something to you. You work for the EPA. The 
EPA is part of the Executive Branch of the United States, and 
the first and foremost responsibility of the Executive Branch 
is to ensure the national security of this nation. We do that 
through ensuring that we have a vibrant economy and that we 
have manufacturing and that we have energy in order to protect 
ourselves. For you and your Administration and for you and your 
leadership to say that you are not responsible for national 
security, I want to make sure I go on record because you just 
told me that is what you said.
    Mr. Garvin. That is not what I said.
    Mr. Johnson. That is exactly what you said, Mr. Garvin. You 
said my roles and responsibilities are such-and-such. You never 
answered my question directly about whether or not you were 
concerned about national security.
    Mr. Chairman, I don't know what we do about compelling 
these witnesses to answer our questions, but I am pretty 
frustrated. I will yield back.
    Mr. Jordan. Let me pick up there real quick, if I could. 
Mr. Garvin, what was your undergraduate degree in?
    Mr. Garvin. Political science.
    Mr. Jordan. Do you have a graduate degree?
    Mr. Garvin. I do not.
    Mr. Jordan. Have you ever worked for anyone in politics?
    Mr. Garvin. Yes.
    Mr. Jordan. Who did you work for?
    Mr. Garvin. I worked for United States Senator Joeseph 
Biden, County Executive Dennis E. Greenhouse.
    Mr. Jordan. Is that the same Joe Biden who is now vice-
president of the United States?
    Mr. Garvin. Yes.
    Mr. Jordan. You still stick by the statement that there is 
no bias in this Administration towards green energy and against 
coal? That is what you said.
    Mr. Garvin. We don't have a bias against coal.
    Mr. Jordan. Now you are changing. Do you have a bias? Pro 
green energy, pro wind and solar?
    Mr. Garvin. Our responsibility is focused on the 
environment. So depending on how you characterize the green 
agenda will depend on how I answer.
    Mr. Jordan. I just want to make the last point I think Mr. 
Johnson was making. You got an undergraduate degree in 
political science. You worked for Joe Biden. So no background 
in science other than political science. On our first panel, we 
had Mr. Hodanbosi who has an undergraduate degree in chemical 
engineering. He has got a Master's degree in chemical 
engineering. He is a professional engineer in the State of 
Ohio. He is part of the American Institute for Chemical 
Engineers Air, Waste Management Association and has worked 
almost 40 years for both Democrat and Republican 
administrations, and his testimony was that there is certainly 
a bias in this Administration towards coal. Any response?
    Mr. Garvin. He is entitled to his opinion. I stand by mine.
    Mr. Jordan. I would just say the facts are the facts, and 
the background is the background.
    With that I will yield to Mr. Kelly.
    Mr. Kelly. If we could, I wanted to just look at the 
footage again. Mr. Mathur, you are here because Ms. Hedman 
can't be here; correct?
    Mr. Mathur. That is correct.
    Mr. Kelly. If we could just go back to Ms. Hedman.
    [Video played.]
    Mr. Jordan. Ms. Hedman could have been here. There is a 
difference. She could have been here. She chose not to come. It 
wasn't like she had a family emergency or anything like that. 
She chose to go to another meeting; is that right?
    Mr. Mathur. Mr. Chairman, my understanding is that she 
could not get out of the other meeting on the Great Lakes, 
regarding the Great Lakes.
    [Video played.]
    Mr. Kelly. Were you also there that day?
    Mr. Mathur. Beg your pardon?
    Mr. Kelly. Were you there that day?
    Mr. Mathur. I was not at the event.
    Mr. Kelly. But it was a group that showed up outside your 
office?
    Mr. Mathur. That is correct.
    Mr. Kelly. You said because there were so many of them out 
there, that she felt like she ought to address them.
    Mr. Mathur. That is correct.
    Mr. Kelly. So if we took our miners who are losing their 
jobs every day because of this war on coal--and there is a war 
on coal. I wish we would stop tap dancing and call it what it 
is. If it waddles like a duck and quacks like a duck, it is a 
duck. This is a duck. Okay?
    Ms. Hedman, if she was so compelled to go out and meet with 
these folks and hold up all these petitions--and I am sure she 
went through each one to make sure they were valid. I am just 
wondering. You would think Ms. Hedman would feel compelled. 
Miners who were losing their jobs and there are people that own 
these mines that are closing down their mines and our electric 
power generation plants are closing down. If those folks showed 
up, do you think she would be compelled to go down there and 
thank them for showing up?
    Mr. Mathur. I can't speak.
    Mr. Kelly. I know you can't speak. Neither one of you can 
speak for anybody. You sure as hell can't speak for the 
American people, and you can't speak for these miners, and you 
can't speak for these people that own these coal mines.
    I want to tell you what a tough job is. A tough job is not 
a tough political environment. It is an environment that makes 
it so impossible for our job creators to even exist anymore. 
That is what a tough environment. Don't give me this hogwash 
about oh, it is so tough being in one of these agencies 
enforcing all this stuff. I don't buy that for one second.
    Now, Ms. Hedman couldn't be here. I love Kurt Spalding 
talking. I even asked you, Mr. Garvin. I know you don't like 
this. You want to build a coal plant, you got a big problem. 
Moreover, we understand the decision is painful. You got to 
remember if you go to West Virginia, Pennsylvania--he didn't 
include Ohio, but Ohio is the same way--and all these places, 
you have coal communities that depend on coal, and to say we 
just think those communities should just go away, we can't do 
that. But she had to do what the law and the policy suggested.
    You know the key to that is the policy suggested. I got to 
tell you we sit in these meetings. I wish you all would walk 
the same places we walk in our districts and look these folks 
in the eyes, and you tell them you are doing it in their best 
interest, and you tell them that it is okay to shut down these 
plants, it is okay to shut down their mines, it is okay to shut 
down their communities, tell them the biggest problem we have 
in this country is some people just don't pay their fair share.
    I will tell you what they are not sharing is the pain. You 
want to talk about pain. You lose your job. You lose your 
ability to feed your family. You lose your ability to stay in 
the hometown that you grew up in in the state that you grew up 
in because of a government that has decided you are no longer 
viable. For anybody to walk around this district or any other 
district and say there is no loss of jobs, they are either 
outright liars or they are in severe denial and they need to 
see somebody else that has a degree in another field. I have 
sat in front of these too many times.
    I understand you don't want talk about what somebody else 
said. I don't care if you are Republican or Democrat. We are 
all Americans. And you can tell me that you can sit there as an 
American and say that you think this is all right because you 
are enforcing a policy. I would quit that job as fast as I 
could. I would run away from anybody that was taking the 
livelihood away from Americans. I am going to ask you a 
question. You are not going to answer it. You are just not. But 
we have it on tape. We know what they say. We know what other 
people are saying about this community, about there is no loss 
of jobs. Really? Really. Go to those homes where the dad isn't 
working. Go to those homes where mom can't make the budget 
anymore because dad doesn't have his job. I want you to look 
them in the eye and sit before them.
    I represent 705,687 people in western Pennsylvania. I don't 
know if they are Republican, Democrat, Independent, 
Libertarian. I don't know what they are. You know what I do 
know? They are all Americans. For this Administration, to pick 
out fossil fuels, specifically coal, and have a war on coal--
your boss, Mr. Garvin, is very biased towards coal. You can't 
deny that. The fact you work with him or worked for him many 
years, if you don't think he was biased--I don't see how you 
can sit here and say, I don't think he has a bias.
    I think he has a bias. I think his boss has a bias. I think 
this whole Administration has a bias. That is why we're here 
today. I believe America needs to understand what the bias is.
    I will tell you what, Mr. Chairman. People say to me Kelly, 
you seem like you are mad. I am mad. I am mad. I am not going 
to sit here and watch this great country go down the drain 
because of upside down thinking people and people that go out 
and distort, purposely lie to the public and try to hide what 
is going on because their party asked too much of them. 
President Kennedy said one time, sometimes your party asks too 
much. It is not about our party. It is about our people, these 
folks right here. If you think you represent anything other 
than the American people, you got raised by the wrong folks.
    I yield back.
    Mr. Jordan. Thank the gentleman. Appreciate his passion. Go 
down to the gentleman from West Virginia, Mr. McKinley.
    Mr. McKinley. Thank you, Mr. Chairman.
    What I am detecting here is a little frustration both ways 
on this. I am hearing a lot of denial as it relates to 
employment. I saw in the Pittsburgh Post-Gazette the other day 
there was an article there about the President is probably the 
most pro coal President we have had in years. I can't 
comprehend that. I go back on that where they are saying that 
there is no layoff, there have been no layoffs in coal. And I 
ask, what world are people living in just sitting here based on 
some remarks you made, I saw layoffs with Consol, Arch Coal, 
Patriot, PBS Coal, Rocks Coal, Murray Coal, Murray Energy. They 
are all across America. There are coal companies that are 
laying off people here in Belmont County and West Virginia.
    I heard you say something about science, and it caught my 
attention, Mr. Garvin, because I am interested in science as an 
engineer and in training science. We looked at in Washington 
the TCLP ratings, Toxicity Characteristics Leaching Profile. We 
have listened to the pushback of the Administration time and 
time again, Lisa Jackson saying how coal is toxic. She says it 
is toxic because of the mercury content. But the mercury 
content in coal is .17 parts per million. There is more mercury 
in a can of tuna fish at .39 parts per million.
    Would you suggest that tuna fish is toxic? Should there be 
an ad run about toxicity for tuna fish?
    Mr. Garvin. There has been a recognition when looking at 
impacts of water that consumption of tuna should be----
    Mr. McKinley. Mr. Garvin, if she is trying to make flyash 
and coal a hazardous material, has the Administration talked 
about doing that with tuna fish?
    Mr. Garvin. We are trying to find ways to deal with what is 
causing the mercury in tuna fish as well as in humans and other 
things that are drastic sources.
    Mr. McKinley. It has been around. I have known about it. I 
have known that the mercury level in tuna fish and other marine 
products is high. But we don't see the attack on that. We see 
something going after the jobs, something that is creating jobs 
for Americans, just as some of the Congressmen have said here. 
Let me go back here. Two quick points.
    In a hearing we had before the Energy and Commerce 
Committee, it was interesting that a representative of the EPA 
was saying we need more research into clean coal technology. I 
thought that was a great position. That is what we have been 
saying all along. Let us keep doing that. Yet the President and 
Secretary Chu, in my opening remark--perhaps you heard that--
they cut funding for clean coal technology 41 percent this time 
and 39 percent last year.
    Do you think people are talking to each other in 
Washington? Is the EPA talking with Chu and the Department of 
Energy?
    Mr. Garvin. I know there is coordination between our 
agencies, yes.
    Mr. McKinley. Go back to that earlier remark. We are adults 
here. This idea of going into denial is just really a waste of 
time. We have got Secretary Chu's own remarks. He said time and 
time again that coal is his worst nightmare. When he testified 
before the Committee, I remember turning to him. I will say the 
same thing to you. With all due respect, I think the EPA and 
the DOE are the worst nightmare for the working men and women 
of America in the coalfields all across America. It is not the 
reverse. It is not coal. It is the actions, the overregulation 
with it.
    Let me conclude with one thing. I am just curious where the 
EPA may be going. Maybe you can give me some insight into it. 
When the EPA's own website says that indoor air quality can be 
as much as 96 times more hazardous to people's health, why 
aren't we paying more attention to some of those issues instead 
of going after the industry that are employing men and women 
all across America on the outdoors? I would think that 90 
percent of our time we spend indoors. But yet the EPA and some 
of the individuals come to us in Congress and our Committee and 
say that the outdoor air is causing asthma, is causing 
deformities in our childbirths, it is causing premature deaths, 
it is causing lack of school days.
    How do you differentiate that when 90 percent of your time 
is spent indoors where you are not exposed to the greenhouse 
gas exposure that perhaps you have on the outside? How do you 
differentiate that when someone says, I have got asthma that 
was caused because of coal-fired powerhouses, not because I was 
breathing dust mites or aerosols or formaldehyde emission 
inside my house? How do you differentiate that from the EPA's 
position?
    Mr. Garvin. Well, we are focusing on both indoor and 
outdoor air. We do know the chemicals that cause certain issues 
as well as environmental issues inside the home. We are trying 
to focus on addressing all of those issues. You talked about 
kind of focusing on jobs and focusing on coal. And what we have 
been focusing on in Region 3 is working with our states and 
working with industry. So at least from the coal mining side of 
that, we can still find a way to extract the valuable energy 
resource by doing it in a way that protects public health and 
the environment. That is what we are working on.
    Mr. McKinley. I think you are picking on an old dog, 
something that has generated jobs. It was the backbone of this 
America. It is one that fueled our economy in the industrial 
revolution, coal. Having that science that you claim the EPA 
uses, I wish you would use it to fight the right area, where 
people truly do have issues. It is not the outdoor air quality. 
It is that exposure to indoor air quality. We ought to take a 
much harder look at that before shutting down our powerhouses 
and threatening our manufacturers.
    With that I yield back my time.
    Mr. Jordan. Thank you gentleman.
    Mr. Garvin, I want to go back where Mr. Kelly was on Mr. 
Spalding's statement. Again, Mr. Spalding is a colleague of 
yours representing the region just to the north of you. He is 
New England.
    Mr. Garvin. New England. He is two up from us.
    Mr. Jordan. Your area again, give me the states in your 
district.
    Mr. Garvin. Delaware, Pennsylvania, West Virginia, 
Virginia, Maryland and the District of Columbia.
    Mr. Jordan. Mr. Spalding stated, this is a quote, ``Lisa 
Jackson put forth a very powerful message to the country. If 
you want to build a coal plant, you got a big problem.'' 
Spalding goes on to explain that the decision was painful 
because you got to remember if you go to West Virginia, 
Pennsylvania and all those places, you have coal communities 
that depend on coal. And to say that we just think these 
communities should go away, we can't do that. But you have to 
do what the law and the policy suggested. And it is painful. It 
is painful every step of the way.
    Let me ask you: Do you think it is painful? I am not asking 
whether you agree with Mr. Spalding necessarily, but do you 
think it is painful to implement the law and policy as they are 
suggested by this Administration?
    Mr. Garvin. Our focus in Region 3 has been focusing on the 
law and science, and as we focused on mainly the clean water, 
that is really the issue of implementation. We have been 
focusing on ways in which the industry can continue to extract 
the resources, but do it in a way that is protective of human 
health and the environment. That is what we have done in West 
Virginia. That is what we have done in Pennsylvania.
    Mr. Jordan. I understand that. Yes or no. Is it tough? Is 
it painful? Is it difficult?
    Mr. Garvin. I don't know how to qualify that. I mean, we 
focus on the impacts of decisions we make. We make our 
decisions based on sound science and basis of law, and it is 
protecting both, focusing on both what the industry is trying 
to do and we are protecting the public health of the citizens 
that live in that area.
    Mr. Jordan. Is your answer you don't think it is difficult 
for these policies to be implemented? The impact it has, you 
don't think it's difficult for ----
    Mr. Garvin. I am not sure how to qualify that question.
    Mr. Jordan. Mr. Mathur, do you think it is difficult?
    Mr. Garvin. I am not sure of the question. We do our job 
and we do it to the best of our ability and we focus on all the 
various impacts.
    Mr. Jordan. I understand that. What I am asking, is it 
difficult when you do your job on the policy that is there? Do 
you think it is difficult for the folks in the field? The folks 
who were on the first panel, do you think it is difficult for 
them to implement your policy? I mean, your colleague Mr. 
Spalding does.
    Mr. Garvin. I think we all generally want to have the same 
outcome which is ----
    Mr. Jordan. Do you know Mr. Spalding?
    Mr. Garvin. I do.
    Mr. Jordan. What is his background? Does he have a 
political science degree, or does he actually have a degree in 
some kind of science?
    Mr. Garvin. I can't answer that. I don't know.
    Mr. Jordan. But you know him?
    Mr. Garvin. I know him.
    Mr. Jordan. Do you think he is a sharp guy?
    Mr. Garvin. Yeah.
    Mr. Jordan. You disagree, you don't think what he said here 
is accurate?
    Mr. Garvin. I can't really respond to what he said.
    Mr. Jordan. I don't know why it so difficult to respond. He 
is saying it is tough. You were here for the first panel. You 
heard how tough they are saying it is. The people that had to 
lay off, the difficulties they have had to deal with. You heard 
from the state representative who represents people in this 
area. It is not difficult?
    Mr. Garvin. I am not sure I understand the question, sir.
    Mr. Jordan. Okay. I am just flabbergasted. Is it you don't 
understand or you won't answer?
    Mr. Garvin. I don't understand.
    Mr. Jordan. Can you give me a yes or no? Do you think it is 
difficult to implement the policies that come from this 
Administration? You heard in the first panel from someone who 
has 40 years experience at the Ohio EPA who says this 
Administration is making it more difficult than any he has ever 
dealt with, and he has dealt with several since 1973. But you 
don't think it is more difficult?
    Mr. Garvin. I think we are implementing the statutes that 
are passed by Congress, the regulations that have been 
promulgated and basing it on sound science.
    Mr. Jordan. Do you think that is harder for the people who 
have to live under those regulations?
    Mr. Garvin. More difficult than what?
    Mr. Jordan. More difficult than previously.
    Mr. Garvin. I think we are basically dealing with the same 
laws and the same regulations that we have dealt with.
    Mr. Jordan. Now you said it. Now you said it. This is the 
point. The Clean Water Act has been around for a while. 
Suddenly, according to Mr. Hodanbosi and according to the 
witnesses on the first panel, they say now it is more difficult 
for sure them to deal with it. Mr. Hodanbosi says this 
Administration is taking this to a level he has never seen 
before. That is the question.
    Mr. Garvin. I can't answer what he thinks is more difficult 
or not difficult. We are implementing the statutes that were 
passed by Congress.
    Mr. Jordan. Are they just out to lunch? They don't get it? 
If you are just implementing the law and the policy and if that 
is the same as it has always been, then why do these four 
people--do you think they are lying when they testified on the 
panel?
    Mr. Garvin. I can't speak for them, Congressman.
    Mr. Jordan. That is what you are saying.
    Mr. Garvin. That is not what I am saying. I am saying we 
are implementing the laws and regulations.
    Mr. Jordan. And they are saying the laws and regulations 
you are implementing are much more difficult than they have 
been under any previous Administration, and that is the punt of 
the whole question. I am asking, do you think that is accurate?
    Mr. Garvin. Again, I can't speak to that.
    Mr. Jordan. Your region includes West Virginia and 
Pennsylvania; is that right?
    Mr. Garvin. Correct.
    Mr. Jordan. Some of the folks here have people who work in 
those states. Do you think part of your job is to listen to 
what they say and take that back?
    Mr. Garvin. Absolutely.
    Mr. Jordan. And take that into account?
    Mr. Garvin. Absolutely, and I have done that.
    Mr. Jordan. We hope you do that. We really do.
    I will yield now to the gentleman from Ohio, Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Garvin, when did you work for now Vice-President Biden, 
what years?
    Mr. Garvin. From 1989 to 1991.
    Mr. Johnson. I would like to ask you a question probably a 
little bit easier because it is based on your extensive 
scientific background that we talked about here. In 2007 Vice-
President Biden said that coal is more dangerous than high 
fructose corn syrup.
    Based on your scientific assessment of that, is that true?
    Mr. Garvin. I can't respond to that.
    Mr. Jordan. It is science, Mr. Garvin.
    Mr. Garvin. I can't respond to that.
    Mr. Johnson. You won't respond to that.
    Mr. Garvin. I can't.
    Mr. Johnson. I got it. You said just a few minutes ago to 
the Chairman that in your region, you are implementing the 
statutes that had been passed by Congress, but that is not what 
one of your colleagues in Region 1 says. He says that you are 
making policies based on what the law suggests, not what the 
law says.
    Is that what you do in your region? Do you base your 
decisions in your region based on the words of the statute or 
what the statutes in your interpretation suggest?
    Mr. Garvin. We do it based on statute, regulations.
    Mr. Johnson. So you disagree then with what the gentleman 
from Region 1 said, right?
    Mr. Garvin. I can only speak to what we are doing in Region 
3.
    Mr. Johnson. I got that, too. Mr. Garvin, do you have any 
responsibility, sense of responsibility to the job creators and 
the businesses and the consumers in the district that you 
represent or the region that you represent? Do you have a sense 
of responsibility to them?
    Mr. Garvin. We take that all into consideration when we 
implement the statutes and the regulations, finding ways to 
work with the states and with the industries to protect human 
health and the environment and continue to have a healthy----
    Mr. Johnson. That is right on your mission statement; 
right. You got that down pretty good.
    Who do you work for, Mr. Garvin?
    Mr. Garvin. I work for Lisa Jackson.
    Mr. Johnson. Does it ever occur to you that you work for 
the American people?
    Mr. Garvin. I do.
    Mr. Johnson. You do? Yet you can't tell me you have got a 
responsibility to the job creators that are in your region? How 
can you say you work for the American people when all you know 
how to do based on your extensive scientific background and 
experience is to read talking points that someone has given to 
you? How can you say that you stand up, man up to that 
responsibility?
    Mr. Garvin. We focus on our responsibility of protecting 
human health and the environment as well as the economic 
impacts.
    Mr. Johnson. You do consider the economic impacts?
    Mr. Garvin. Yes.
    Mr. Johnson. What do you say then to policies that threaten 
thousands of coal-related jobs? What do you say to the families 
that are associated with those kind of policies? Because now 
you are contradicting yourself.
    Mr. Garvin. We focus on the Clean Water Act. We focus on 
the 402 permits, the NPDES permits and the 404 permits which 
are the fill permits. We look to find ways to avoid, to 
mitigate and to minimize, avoid, minimize and mitigate to allow 
a project to move forward so it is still protecting the human 
health and the environment of the people.
    Mr. Johnson. Memory is a tricky thing, isn't it? When you 
can't remember those talking points, it gets tough trying to 
evade these questions.
    Mr. Chairman, this is going nowhere. I yield back.
    Mr. Jordan. I recognize the gentleman from West Virginia.
    Mr. McKinley. Let us go back to the science again, that 
issue. The standards set forth by the EPA using the TCLP, very 
clear about what levels of toxicity in barium, arsenic, 
mercury, selenium, lead, other heavy metals. They are very 
clear. But coal doesn't achieve any of those. It has always 
below in all tests. Virtually every coal, whether it is from 
the Powder Ridge Basin out west or the northern Appalachian 
coal, it all tests below those in all that, but yet the EPA 
continues to refer to coal as being toxic. It doesn't meet the 
standards of toxicity. It is below the standard.
    Do you think coal is toxic?
    Mr. Garvin. I believe that burning coal has an 
environmental impact that we are looking to----
    Mr. McKinley. No. Is it toxic? Does it exceed the TCLP of 
your own standard? Does it exceed the standards you set up, the 
EPA set up for toxicity? Does it exceed it?
    Mr. Garvin. I have to refer that back to our scientific 
experts. I can give you an answer to that question.
    Mr. McKinley. It just causes uncertainty what you are 
saying there. You know, it doesn't reach those toxicity levels, 
but yet it is commonly referred to as a toxic material. I have 
already demonstrated to you that the mercury level in a can of 
tuna fish--there is more mercury in a can of tuna fish than 
there is in an equivalent can of flyash, but yet over here we 
are trying to class it as a hazardous material and this we 
serve it to our children to eat.
    Maybe you remember the statement I made earlier, perhaps 
you do, and that was just because you can doesn't mean you 
should. Just because you can doesn't mean you should. The EPA 
has a tendency of continuing to swirl the uncertainty because 
it can. It can create any standard that it wants. They don't 
answer to us in Congress. They only answer to the President. 
You know that. We can't correct it. We can offer alternatives. 
We can offer legislation, but we can't get them to repeal an 
EPA standard. I don't know where you are going with the EPA.
    With the soot standard, the soot rule, we want to go from 
15 milligrams per cubic meter down to 12. We are going to spend 
billions of dollars to reduce the amount of particulate matter 
in the air. Why stop at 12? Why not 10? Why not 5? Because as 
soon as industry, the powerhouses or the manufacturing plants 
once they achieve 12, then you say I am going to issue another 
standard. Then they have to go change their technology, 
different baghouses, different electrostatic precipitators, 
different devices.
    It is uncertainty that you keep creating at the federal 
level just because you can, not because you should. They have 
testified before us in Energy and Commerce. They can't justify 
on the health standard to make a reduction in particulate 
matter from 15 to 12. But you are allowed to do it because the 
President has authorized the EPA to promulgate these rules. But 
there is no basis of them.
    Where are you going with this? Is there a reason that we 
just do it incrementally? Why not tell industry that 20 years 
from now you are going to get down to 5 micrograms per cubic 
meter and they can plan for that instead of incrementally. You 
keep changing the rules as we go along. What is the thought 
process there with the EPA?
    Mr. Garvin. As I told you in my opening statement, our job 
in the regions is implementation. We don't create or promulgate 
the rules. That is done by the policymakers in D.C. So I can't 
really respond to that.
    Mr. McKinley. I guess we will have to deal with it another 
day. When you come to Washington, we can carry on this 
conversation. You can see how frustrating it is. We know the 
EPA is promulgating the rules. If we want to parse our words 
and say it is the regulators doing it, it is what the EPA is 
doing.
    Mr. Jordan. The previous question I asked you was part of 
your job was to listen to what constituents in your district 
have to say. I think we were on the first panel. So which is 
it? Are you going to listen to them and take the information 
back? You can only do what they say. Or are you going to 
actually take that information back and try to impact those 
regulations because you heard from people who you represent or 
at least you are supposed to represent? You heard from them on 
the first panel.
    Mr. Garvin. Absolutely. As I said, we will take that 
information back and we will provide that to those who make the 
decisions. My point to the Congressman from West Virginia was I 
can't respond to how the ultimate decision is going to be made, 
but we can help provide information on what we are seeing in 
our regions from various areas and sectors on issues and 
concerns that are related to those.
    Mr. Jordan. Before the decisions were made on Utility MACT 
and other rules that have been promulgated by this 
Administration, did you seek input from West Virginia and 
Pennsylvania? Did you pass that up the line to those folks?
    Mr. Garvin. We had our staff that was passing along 
information based on our engagement.
    Mr. Jordan. Did you? Did you pass it along?
    Mr. Garvin. Not personally, no.
    Mr. Jordan. Mr. Kelly.
    Mr. Kelly. Mr. Garvin, in your discussion I think with 
Congressman McKinley, you said not only environmental impact, 
but you also look at the economic impact.
    Mr. Garvin. Yes.
    Mr. Kelly. So what are the metrics? Tell me when you look 
at the economic impact, where is the cut-off point? Where do 
you say we are trying to achieve something that doesn't make 
sense economically?
    Mr. Garvin. There is not a matrix. What I am referring to 
is we have an applicant that comes before us with a permit, be 
it either a 402 which is direct delegated authority from EPA to 
the states or a Corps permit in which EPA is engaged in the 
process. We look at the project that they are looking to 
implement, and we try to find ways to work with both the state, 
the Corps and the applicant to figure out how best to protect 
the environment as well as continue to move forward with their 
projects.
    I will give you an example. The Hobath Mine that was 
permitted, we were all able to successfully work together to 
minimize, to reduce 50 percent of the impacts and still getting 
over 91 or 92 percent of the coal take that the company was 
looking for. When I talk about economics, that is kind of----
    Mr. Kelly. In business time is always of the essence. 
Permitting times, I have friends that do this. And they tell me 
it has gotten to the point right now--it may be that there is 
not enough people to review permits. I don't know. But this 
idea it can take whatever amount of time it takes to get 
something reviewed, I mean, you could stall anybody for about 
as long as you want.
    In the coal business, these people have done this, some for 
generations, and are experiencing a tie-up in getting permits. 
There is no permit authority. I will tell you that that may be 
okay for you to say, but when you are actually on the field, 
there is a tremendous tie-up. These folks cannot keep their 
machinery idle and their working crews idle while the 
Department, whether you or the Army Corps of Engineers, 
continues to sift through this permitting. You don't think it 
is taking longer to get permits?
    Mr. Garvin. In Pennsylvania----
    Mr. Kelly. Just yes or no, because I don't want to put you 
through this too much longer.
    Mr. Garvin. No. In Pennsylvania basically there are no 
Corps permits, no 404. There is no mountaintop mining. It is 
all subsurface and all longwall mining.
    Mr. Kelly. So these people that are telling me it is taking 
longer to get permitting----
    Mr. Garvin. I can't speak for the process for the state to 
get it to us, but we have a 30-day clock to do a general 
objection, then a 90-day clock to address that. We have had 113 
permits from the same period of 2011 to 2012. In Pennsylvania 
we had one objection which has been resolved. So I am not sure 
what that is based on.
    Mr. Kelly. I will tell you what it is based on is going out 
and actually talking to people in the business and saying to 
them so how much tougher is it for you now than it was before, 
and they are telling me it is much more difficult. They have no 
reason to tell me that other than the fact they are trying to 
make payrolls, they are trying to be profitable and they are 
just trying to keep their business alive.
    What they keep saying to me is, what can you guys do to 
help us? So returning to this, if we are not studying the 
economic impact of some of this policymaking that we are doing, 
how do we know it is beneficial? Is there no determination of 
where we are trying to get to? And at what point do we say it 
is no longer economically feasible to do it? I think that is 
what we are doing with a lot of these folks. We are putting 
them out of business. They can't continue to do what we are 
asking them to do, because we are raising the bar all the time 
for them.
    I wish the DOE had used the same type of a metric when they 
were talking to all these people with renewables. We threw 
billions of dollars away. Do you not look at that? I know you 
can't speak what is going on in other regions, but I would 
think that you all get together from time to time and you talk 
about best practices and what would be more efficient and what 
would be more effective.
    Is there any consideration given to the job creators as to 
what would be better for them?
    Mr. Garvin. Again, what I know we focus on, we focus on 
trying to look at it, but trying to do it working with the 
states and the applicants.
    Mr. Kelly. So the people that are in the business, that is 
not part of the equation?
    Mr. Garvin. Well, the projects are in the equation which 
then engage the folks who going to do the projects. Our focus 
is trying to move the projects along, but protect the 
environment.
    Mr. Kelly. I guess somewhere you said that would be on 
them, talking to people that actually have to make a living and 
actually sign those paychecks. I will tell you that until you 
have been in that position--you fellows work for the 
government. I don't think you guys ever miss getting paid. I 
can tell you there are many times I have not paid myself and 
made sure that the guys and gals that work for me get paid 
first. I wish we could flip that around in this government. I 
wish we could hold up the paychecks until this becomes more 
effective and more efficient and doesn't run $1.7 trillion a 
year in the red. And that same group of people that is running 
that model is trying to tell these folks how to run theirs? I 
would guarantee you if all of you didn't get paid because of 
poor performance, you would see the performance level rise real 
quick.
    I yield back, Mr. Chairman.
    Mr. Jordan. Thank you. Good point.
    Mr. Mathur, Dr. Hedman, she is chairing a Great Lakes 
restoration initiative, is that why she couldn't come to the 
meeting, the reason she gave for not being able to be with us 
today?
    Mr. Mathur. Yes, Mr. Chairman. She is chairing a committee 
of 15 federal agencies.
    Mr. Jordan. Where is that? Where is that meeting taking 
place?
    Mr. Mathur. I am not sure of the location.
    Mr. Jordan. We are looking at her schedule from yesterday. 
It says will chair the annual budget meeting for the federal 
agencies involved in implementation of the Great Lakes 
restoration initiative. That was yesterday at 12:00 noon, 
12:05. Is this a 2-day meeting?
    Mr. Mathur. I was under the impression the meeting was 
continuing today.
    Mr. Jordan. But there is no way she could have gone from 
12:00 to 5:00, five hours yesterday at this meeting, flew to 
Columbus, then here, and then flew--we understand this meeting 
is in Chicago--back to Chicago? She just couldn't do that?
    Mr. Mathur. I can't speak to her schedule.
    Mr. Jordan. Obviously she told you. She said, I am not 
going. You are going to have to go take what they are going to 
give to Mr. Garvin and what they would have given to me. You 
have to take this. I don't want to be there. I would rather 
chair a meeting that takes place five hours the day before and 
I am going to make sure I stay overnight and be there for the 
second day because I don't want to talk to the members of 
Congress who are going to talk about the jobs that have been 
lost because of the policies of this Administration.
    Mr. Mathur. She actually asked me last week to represent 
her here today. After consultation with appropriate folks in 
Washington, I am here. She wanted to make sure I can answer 
your questions on how Region 5 does its business.
    Mr. Johnson. Mr. Chairman.
    Mr. Mathur, I might remind you that you are under oath.
    Mr. Mathur. Yes.
    Mr. Johnson. Are you saying you do not know whether your 
boss' meeting was yesterday or today? When was the meeting, Mr. 
Mathur?
    Mr. Mathur. I honestly don't know exactly what were the 
dates of her meeting with the other federal agencies. All I was 
made aware of was that----
    Mr. Johnson. Where is she today? Where is she physically 
today? Most everybody that has a boss checks in periodically. 
You are the deputy administrator. So she is probably pretty 
anxious about hearing how this hearing went.
    Where are you going to be calling her? Where is she today?
    Mr. Mathur. I honestly don't know where she is today.
    Mr. Jordan. This is a meeting that happens periodically?
    Mr. Mathur. A face-to-face meeting happens infrequently.
    Mr. Jordan. No. I am talking about the meeting she is at. 
This happens periodically. Is it typically a 1-day meeting, a 
2-day meeting, 5-day meeting, all week meeting? Only a 2-day 
meeting when you have to come in front of a committee of 
Congress?
    Mr. Mathur. Particularly they meet by telephone. Face-to-
face meeting is infrequently held. I cannot tell you how long.
    Mr. Jordan. This is a face-to-face meeting?
    Mr. Mathur. Yes.
    Mr. Jordan. Is it typically one or two days?
    Mr. Mathur. It can go either one or two days. It has gone 
both ways in the past.
    Mr. Jordan. But you don't know if this meeting is a one or 
two day?
    Mr. Mathur. I do not.
    Mr. Jordan. She didn't tell you were coming here till last 
week? She didn't tell you were going to be in front of this 
Committee until last week?
    Mr. Mathur. I was made aware that I was going to attend 
this meeting I think very soon after the Committee requested 
her presence at the meeting.
    Mr. Jordan. Did you guys discuss this meeting, what you 
would say, the response you would give or the fact that you 
wouldn't give an opening statement? Did you discuss all that?
    Mr. Mathur. Not with Ms. Hedman. That was discussed with--
--
    Mr. Jordan. You are the number two at the region, is that 
correct?
    Mr. Mathur. That is correct.
    Mr. Jordan. If this is an indication of the infrequency 
that you communicate with the boss, then it is no wonder that 
people in the field have a misunderstanding of what is going 
on. If that is the kind of communication that we have with the 
region, I think it is understandable why people are confused 
about this as well.
    Mr. Mathur. I think the preparation for this meeting was 
discussed more with the Congressional folks in Washington.
    Mr. Jordan. Further questions? Mr. Johnson.
    Mr. Johnson. It is not untypical that we ask witnesses to 
respond back with answers to questions that they don't know the 
answer to.
    Mr. Mathur, we are going to be here for a few minutes after 
the adjournment of this meeting. Can you find out where your 
boss is? Can you call the office and find out where she is 
today?
    Mr. Mathur. I most certainly will do that.
    Mr. Johnson. We would like to know. Thank you.
    Mr. Jordan. Members will have 7 days to submit questions 
and information to the Committee.
    Mr. Jordan. I want to thank our guys. I know it is not 
always pleasant. But it is the nature of this job. We 
appreciate you coming here and taking the time. I know you have 
busy schedules as well. We appreciate you coming--it is an 
important part of the country on an important issue--and 
participating in this morning's hearing.
    I thank all our members for being here. I want to thank the 
audience and members of the first panel, those who are still 
here. We appreciate you all being here today.
    With that we are adjourned.
    [Whereupon, at 10:50 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
